<html>
<title> - IMPLEMENTATION OF THE NEW STRATEGIC ARMS REDUCTION TREATY (START) AND PLANS FOR FUTURE REDUCTIONS IN NUCLEAR WARHEADS AND DELIVERY SYSTEMS POST-NEW START TREATY</title>
<body><pre>[Senate Hearing 112-228]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-228
 
 IMPLEMENTATION OF THE NEW STRATEGIC ARMS REDUCTION TREATY (START) AND 
 PLANS FOR FUTURE REDUCTIONS IN NUCLEAR WARHEADS AND DELIVERY SYSTEMS 
                         POST-NEW START TREATY 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 4, 2011

                               __________

         Printed for the use of the Committee on Armed Services




        Available via the World Wide Web: http://www.fdsys.gov/

                                __________

72-462 PDF                   WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                 E. BENJAMIN NELSON, Nebraska, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
MARK UDALL, Colorado                 ROGER F. WICKER, Mississippi
MARK BEGICH, Alaska                  ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana

                                  (ii)























                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 Implementation of the New Strategic Arms Reduction Treaty (START) and 
 Plans for Future Reductions in Nuclear Warheads and Delivery Systems 
                         Post-New START Treaty

                              may 4, 2011

                                                                   Page

Perry, Hon. William J., Michael and Barbara Berberian Professor, 
  Center for International Security and Cooperation, Stanford 
  University, Former Secretary of Defense........................     4
Miller, Hon. James N., Jr., Principal Deputy Under Secretary of 
  Defense for Policy.............................................    24
Kehler, Gen. C. Robert, USAF, Commander, U.S. Strategic Command..    28
Payne, Dr. Keith B., Professor and Head, Graduate Department of 
  Defense and Strategic Studies, Missouri State University 
  (Washington Campus)............................................    30

                                 (iii)


 IMPLEMENTATION OF THE NEW STRATEGIC ARMS REDUCTION TREATY (START) AND 
 PLANS FOR FUTURE REDUCTIONS IN NUCLEAR WARHEADS AND DELIVERY SYSTEMS 
                         POST-NEW START TREATY

                              ----------                              


                         WEDNESDAY, MAY 4, 2011

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
room SR-232A, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Nelson, Udall, Shaheen, 
and Sessions.
    Committee staff members present: Leah C. Brewer, 
nominations and hearings clerk; and Jennifer L. Stoker, 
security clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; and Richard W. Fieldhouse, professional staff member.
    Minority staff member present: Daniel A. Lerner, 
professional staff member.
    Staff assistants present: Hannah I. Lloyd and Breon N. 
Wells.
    Committee members' assistants present: Ann Premer, 
assistant to Senator Ben Nelson; Casey Howard, assistant to 
Senator Udall; Chad Kreikemeier, assistant to Senator Shaheen; 
and Lenwood Landrum and Sandra Luff, assistants to Senator 
Sessions.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Nelson. Good afternoon. The subcommittee meets this 
afternoon to discuss implementation of the New Strategic Arms 
Reduction Treaty (START) and the next steps for possible future 
reductions in strategic systems beyond those in the New START 
treaty. With us today we have: Principal Deputy Under Secretary 
of Defense for Policy, Dr. Jim Miller; Commander of U.S. 
Strategic Command (STRATCOM), General C. Robert Kehler; former 
Secretary of Defense, Dr. William Perry; and Dr. Keith Payne, 
Professor and Head, Graduate Department of Defense and 
Strategic Studies, Missouri State University at the Washington 
Campus.
    Dr. Perry was the Chairman of the Perry-Schlesinger 
Strategic Posture Commission. Dr. Payne was a member of that 
Posture Commission. Other than General Kehler, all of our 
witnesses this afternoon have testified on previous occasions 
on the topic of strategic arms reduction during the Senate 
consideration of the New START treaty. The only reason General 
Kehler didn't is because he was appointed subsequent to that.
    The organization of the hearing today is not the norm as 
we're having just one panel of witnesses, both government and 
private sector. Normally this hearing would have been conducted 
in two panels, but to allow us to take full advantage of Dr. 
Perry's limited availability today we're having one panel.
    In that regard, I would note that Dr. Perry has to leave at 
3:15 p.m. so he can catch his flight back to California for a 
speech. As a result, I'll forego additional opening remarks 
until later in the hearing, and I'd ask as well our witnesses 
to forego some opening remarks, but ask each witness to make 
closing remarks at the end of the hearing.
    Dr. Perry, we would like to have any closing remarks from 
you as well prior to departure at 3:15 p.m. Several people are 
watching the clock so that time doesn't get away from us and we 
keep you on schedule.
    All written statements that have been received will, of 
course, be included in the record.
    Now I turn to my ranking member, my good friend, Senator 
Sessions.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you, Mr. Chairman. It's a pleasure 
to work with you. I know your expertise and interest in these 
important matters.
    Today's hearing is a continuation of our dialogue on U.S. 
strategic posture in a post-New START treaty environment in 
what appears to be the administration's intention to change 
U.S. nuclear doctrine and targeting guidance in an attempt to 
pursue further reductions in the nuclear stockpile on the path 
to what many of us feel is a misguided and dangerous idea of a 
world without nuclear weapons.
    I wish it were so, but I believe that it's beyond 
unrealistic. It really could be dangerous if it clouds our 
thinking.
    When we commissioned the bipartisan Perry-Schlesinger 
Strategic Posture Commission in 2008, we looked to a 
distinguished panel of 12 independent experts to address the 
current state and future role of nuclear weapons and strategic 
deterrence, among other crucial national security issues. Dr. 
Perry, thank you for your leadership. Dr. Payne, thank you for 
serving as a valuable member of that commission.
    Among their many findings and recommendations, the Posture 
Commission emphasized the importance of achieving balance by 
sustaining a nuclear deterrence for the indefinite future while 
reducing reliance on nuclear weapons for deterrence. It is a 
balanced approach, and I'm concerned that the administration 
may be on the verge of abandoning that approach, opting instead 
for a nuclear weapons policy focused on unilateral reductions, 
an approach the Posture Commission warned would ``weaken the 
deterrence of foes and the assurance of allies.''
    While the Posture Commission expressed differing visions of 
what might be possible in the long term, they urged extreme 
caution towards pursuing any approach characterized as being 
lopsided and concluded that: ``So long as nuclear dangers 
remain, the United States must have a strong deterrence that is 
effective in meeting its security needs and those of its 
allies.''
    So I look forward to hearing from Dr. Perry and Dr. Payne 
as we go forward to discuss the balance that we need to 
achieve.
    Recent statements by the President's National Security 
Advisor have prompted new questions in my mind about the 
administration's intent to pursue additional reductions. In his 
speech before the Carnegie Endowment, National Security 
Advisor, Tom Donilon, the President's right-hand man, stated 
that the administration is currently ``making preparations for 
the next round of nuclear reductions'' already, and that the 
Department of Defense (DOD) will be directed to ``review our 
strategic requirements and develop options for further 
reductions in our current nuclear stockpile.''
    Mr. Donilon continued, stating that in meeting these 
objectives the White House will direct DOD to consider 
potential changes in targeting requirements and alert 
procedures. Furthermore, by inferring that the New START treaty 
signified a ``shared goal of disarmament,'' his words, between 
the United States and Russia--so I question the reality and the 
seriousness of that goal, frankly.
    The U.S. Senate did not consent to a goal of disarmament. 
That was not part of the New START treaty.
    The U.S. Senate has also not agreed to or been consulted on 
unilateral nuclear reductions, which according to recent press 
reports the administration is also considering.
    So I look forward to hearing our witnesses' assessments of 
Mr. Donilon's comments, to better understand from our DOD 
witnesses what actions they've been instructed to take, how 
such guidance could influence the ongoing modernization of the 
triad of nuclear delivery vehicles, and the potential 
operational impacts of such guidance on force posture, 
targeting, and alert procedures.
    The outdated state of nuclear weapons complex and the 
overdue need for robust investment is an area of significant 
concern, and I think we share that. I commend the President for 
working with Congress to address it. In response to the Posture 
Commission's assessment and the urging of Congress, the 
administration has identified a need for more than $200 billion 
over the next 10 years to modernize and sustain our nuclear 
deterrence. This is a level of investment that appears to be 
absolutely necessary to create the kind of weapons systems we 
need. Maybe some efficiencies can occur, but fundamentally we 
need to meet the goal we set of modernizing our facilities and 
our weapons systems.
    We should remember that during the Cold War we devoted 
about one-quarter of our defense budget to the nuclear 
deterrence mission. Today our current spending will account for 
only some 3 percent of the defense spending. With a sustained, 
whole-of-government commitment to modernizing our forces, we 
will be postured to better face the challenges of the future. 
The conditions for further reductions, in my opinion, however, 
do not exist today, and while a modernized and robust 
manufacturing and delivery capability will gradually instill 
greater confidence and increased deterrence, even then I remain 
unconvinced that the conditions will ever exist to facilitate 
reductions below the New START levels. I just think there's a 
danger in going below this level and I think we need to be 
careful and thoughtful about it. The future threat remains 
dynamic. We look forward to hearing your testimony.
    Thank you, Mr. Chairman, and I welcome the witnesses.
    Senator Nelson. Thank you, Senator Sessions.
    Dr. Perry, I'll go with the first question here. You were 
the Chairman of the Strategic Posture Commission, as indicated, 
and one of the Posture Commission's findings was that reaching 
the ultimate goal of global nuclear elimination would require a 
fundamental change in the world geopolitical order.
    Did the Posture Commission have a view on the conditions 
for future incremental reductions beyond those in the New START 
treaty, number one? Number two, in your view, what sort of 
changes, if any, in geopolitical order would merit additional 
reductions?
    Dr. Perry. The answer to the first question, Senator 
Nelson, is that the Commission did not look directly at the 
question of what should follow. It advocated support of the New 
START treaty, but did not seriously discuss the steps that 
would follow after that.
    In my own view, what would be required there is very 
difficult, but worth doing, is coming to an agreement with the 
Russians on the tactical nuclear weapons, of which they have 
several thousand and of which we only have a few hundred. 
There's a real asymmetry in forces between the United States 
and Russia in that regard, and there's a real asymmetry in 
threat perception, which leads the Russians to believe they 
need those tactical nuclear weapons. They live in a different 
neighborhood than we live in.
    I'm very much in favor of moving forward with a follow-on 
treaty. I think it's going to need to include tactical nuclear 
weapons. I think that will be a very difficult task, but not 
impossible to arrive at a way of dealing with that problem.
    Senator Nelson. From your perspective, you don't see the 
administration moving unilaterally to reduce the arms?
    Dr. Perry. No, I do not. I think all of the actions that 
I've seen from the administration and all the statements that 
have been made suggest they're going to move hand-in-hand with 
the Russians, and I think it's possible that they will be able 
to find some mode of agreement with the Russians on a follow-on 
treaty. But it's a treaty which will be bilateral and I think 
will look forward. If there's any movement beyond that, it has 
to be beyond bilateral; it has to include other nations that 
have nuclear weapons.
    Senator Nelson. On April 18 in the op-ed in the Financial 
Times that my colleague has mentioned, Tom Donilon, the 
President's National Security Advisor, discussed the need to 
begin the next round of nuclear weapons reductions as the New 
START treaty is implemented. He said that a review at President 
Obama's direction ``will develop options for new reductions in 
the U.S. stockpile. Once complete, this will shape our approach 
to a new agreement with Russia.''
    Dr. Miller, has the review that Mr. Donilon mentioned 
started? Who is participating in that review and would there be 
a timeline for completion if there is such a review ongoing?
    Dr. Miller. Mr. Chairman, that review has not yet 
officially kicked off, but we've had some initial discussions 
about both its content and the timeline. We expect that when we 
do get presidential guidance to initiate the study it will take 
several months, and following that we would then expect to see 
changes to presidential guidance for nuclear weapons targeting, 
and all of this we expect to be consistent with the Nuclear 
Posture Review (NPR).
    Following any changes in presidential guidance, we would 
expect to see changes to the Secretary's guidance, changes in 
the guidance from the Chairman, each of which, each layer from 
the President to the Secretary to the Chairman, is more 
detailed, and then the development of any revisions to 
operational plans by the Commander of STRATCOM.
    Mr. Chairman, I want to emphasize that all of this activity 
is entirely consistent with what has happened in the past after 
the completion of NPRs and similar work, and that we are 
intending to undertake this consistent with the principles 
outlined in the NPR and intending to ensure that we continue to 
have effective deterrence and stability, that we have effective 
extended deterrence and assurance of our allies as well; and 
that, as Senator Sessions noted, the investments in our 
infrastructure and our delivery systems are critical as we move 
forward.
    Senator Nelson. While the administration may be moving 
forward in anticipation of a new reduction, anything that it's 
doing is not intended to be unilateral; I heard Dr. Perry say 
something of that sort. Is that the way you see it?
    Dr. Miller. Senator Nelson, that's exactly correct. We said 
in the NPR that, while exact parity may not be as important as 
it was in the Cold War, there are still a number of good 
reasons why it's important that, if we go and as we go forward 
to any further reductions, that Russia join with us. That 
principle, articulated in the NPR, still remains valid and is a 
guiding principle for the analysis that we expect to undertake 
and implement in the NPR.
    Senator Nelson. Thank you.
    Senator Sessions, would you like to ask questions?
    Senator Sessions. Yes. I'm looking at the Associated Press 
article of April 5 by Desmond Butler: ``In the mean time,'' it 
says, ``the administration is looking for other ways to cut its 
arsenal. A senior administration official, speaking on 
condition of anonymity because of the sensitivity of the issue, 
confirmed that the United States is considering these cuts 
independent of negotiations with Russia.''
    So do you know who made those comments and do they reflect 
the opinion of the administration, Dr. Miller?
    Mr. Miller. Senator, I don't know who made the comments and 
the policy of the administration has been and remains to move 
forward after--with any reductions beyond New START, in 
partnership with Russia, and to give priority to that. We have 
said in the past that we--and I believe that National Security 
Advisor Donilon made reference to this in his remark--that our 
intention is to propose reductions in strategic and non-
strategic weapons, in both deployed and nondeployed weapons, in 
order to go after the asymmetry that Dr. Perry referred to, 
where Russia has much larger numbers of tactical nuclear 
weapons.
    We could foresee some steps to improve transparency--we 
think that would be very helpful--to continue to work on 
strategic and tactical nuclear weapons, and ultimately to 
reduce their numbers.
    Senator Sessions. I'll be frank with you. I appreciated the 
agreement that Congress asked for and insisted on as part of 
the START treaty negotiations to spend the $200 billion to 
modernize our arsenal and our facilities. But in the defense 
NPR the document had 31 references to the President's goal of 
zero nuclear weapons and a world without nuclear weapons. The 
President has repeatedly stated that he wants to lead by 
example.
    In this article I just quoted from from AP, it quotes the 
President as promising: ``To put an end to Cold War thinking, 
we will reduce the role of nuclear weapons in our national 
security strategy, and urge others to do the same.'' In other 
words, we will reduce and urge others to do the same.
    Forgive me if it's making me feel like that this very 
strong commitment to zero nuclear weapons has put us in a 
position where we're going to lead without being assured that 
our nuclear competitors are participating equally.
    Could you comment on that?
    Dr. Miller. Senator, thank you. Every President since the 
nuclear age began has advocated the eventual elimination of 
nuclear weapons with one exception. That was George W. Bush. 
Every President since Truman has advocated that as a goal. 
President Obama, I think, is therefore not unique in that goal, 
and he has noted explicitly that he does not expect it 
necessarily to occur in his lifetime.
    Senator Sessions. Necessarily to occur, but it might. Do 
you think it's likely? Do you think it's likely we'll have zero 
nuclear weapons in President Obama's lifetime, recognizing he's 
even as a young man he is?
    Dr. Miller. Senator Sessions, I think it would take, as Dr. 
Perry referred to, fundamental changes in the security 
environment that are very difficult to foresee today.
    Senator Sessions. You would agree that somebody that wrote 
the defense NPR took very seriously this goal, to a degree I've 
never seen before, to reduce nuclear weapons to zero.
    I know Secretary Gates did the introductory letter and he 
made reference to zero nuclear weapons in his introduction. To 
what extent were you involved in that?
    Dr. Miller. I was very much involved in it, Senator.
    Senator Sessions. Was it under your supervision?
    Dr. Miller. Sir, the NPR was under the supervision of the 
President. It was a report provided by Secretary Gates and I 
was honored to play a role in that.
    Senator Sessions. What I would tell you is that according 
to Mr. Donilon, the National Security Advisor, the White House 
will direct DOD to consider ``potential changes in targeting 
requirements and alert procedures.''
    If you want--the policy we have today, the numbers we've 
agreed on today match, do they not--General Cartwright I 
believe testified they did--the targeting and alert 
requirements this country has? Is that yes or no?
    Dr. Miller. The answer is yes, that the numbers agreed to 
under the New START are more than sufficient to meet the 
guidance that currently exists, which is the guidance that was 
inherited from the Bush administration.
    Senator Sessions. I believe it was General Cartwright that 
said they meet the requirements. That's what's required to meet 
the targeting and alert requirements. If you want to reduce 
that number, then you need to get DOD to change the targeting 
requirements, do you not? Otherwise, your weapons system 
wouldn't meet your targeting requirements.
    Dr. Miller. Senator, we see it in the other direction, and 
that is that we're being asked to look at potential changes in 
nuclear targeting guidance and associated requirements and to 
then do so in a way that strengthens deterrence and extended 
deterrence and assurance of our allies, and also to do so in a 
way that over time will reduce the role of nuclear weapons.
    Senator Sessions. The goal should be, am I not correct, to 
ensure the defense and security of the United States of 
America? That's your goal.
    Dr. Miller. Of course that's the goal, Senator.
    Senator Sessions. If you're going to reduce the targeting 
requirement, I come back to the thing, it seems to me that the 
President's goal is permeating DOD. He's not asking DOD, what 
do you need to meet your targeting requirements? He's asking 
DOD, apparently through Mr. Donilon, to change the targeting 
requirements, therefore to meet his goal of reducing weapons.
    Dr. Miller. Senator, case number one in the analysis will 
be what we have today and the planned forces under New START, 
it will look at that with respect to current guidance. We 
already know that those two match up because that was the 
analysis done during the NPR relating to the New START treaty.
    The analysis will then look at alternative approaches to 
targeting and to hedging and to other steps that are also 
intended--all of them are intended to meet our deterrence and 
assurance requirements. Then we'll look at the associated 
numbers there. That is intended to inform future presidential 
guidance.
    The alternative would be to say the President should 
provide guidance which all previous Presidents have done 
without the benefit of that analysis. So my perspective is it's 
a good useful thing to have the President informed as to the 
possible consequences of different types of guidance. It 
doesn't mean that any one will necessarily be selected. That's 
the purpose of the analysis, to inform that and to do it in a 
way that will help understand the implications of each for 
deterrence, extended deterrence, and assurance in particular.
    Senator Sessions. Will you assure us that the military 
professionals, I hope, that are engaged in this will be 
protected and allowed to produce their independent, best 
independent judgment of what kind of targeting procedures we 
need?
    Dr. Miller. Yes, sir. Explicitly, STRATCOM played a central 
role in the NPR, including our analysis of what was appropriate 
under New START, and that will be the case in this analysis as 
well. The same will be true of the Joint Staff--you mentioned 
General Cartwright--and the Services also and the Chiefs played 
a critical role in our analysis in NPR. That will be the case 
for this analysis as well.
    Senator Sessions. I believe the state of the record today 
is that it was General Cartwright, if I'm not mistaken--General 
Chilton, excuse me. I was confused about that. General Chilton 
has testified this is the force structure we need. His quote 
is: ``I think the arsenal we have is exactly what is needed 
today to provide the deterrent.''
    So all of a sudden, as soon as we sign the New START 
treaty, the President, who has repeatedly said his goal is to 
go to zero nuclear weapons, his goal is to set an example for 
the world, his staff person I'll acknowledge anonymously says 
that they might do it independent of Russian participation. It 
just causes me concern that there will be pressure on DOD to 
produce targeting policies to meet and justify the reduction. 
I've been around here long enough to know that can happen, and 
I'm uneasy about it.
    My time is up. Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator Sessions.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Welcome, gentlemen. I have some specific questions, but I 
did want to comment on the line of thinking that my friend from 
Alabama just explored. Dr. Miller, you said every President 
with the exception of George W. Bush starting with General 
Eisenhower has called for an ongoing reduction in nuclear arms 
consistent with the national security needs of the United 
States?
    Dr. Miller. Senator, every President starting with 
President Truman has called for the elimination of nuclear 
weapons, except for President George W. Bush.
    Senator Udall. Is it fair to say that you look at the arc 
of history over those 60-some years now, that the civilized 
world, the developed world, with two exceptions I can think of, 
Iran and North Korea--and some would argue particularly the 
latter country is far from being developed--have come to 
understand that the reduction in nuclear arms can actually 
result in a safer, more stable world, as opposed to an arms 
race without limits?
    Dr. Miller. Senator, I think that's generally correct. 
We've also seen over this same period of time a number of 
countries pursuing nuclear weapons principally because of their 
regional security conditions. You can think of, for example, 
Pakistan in that category.
    Senator Udall. That's fair enough.
    Dr. Miller. India as well.
    Senator Udall. Secretary Perry and Dr. Miller, I note that 
National Security, Advisor Donilon, wrote an op-ed in the 
Financial Times focused, I think, in particular on the 
reduction of tactical nukes in the European theater, as did 
Minister Ivanov and former Secretary of State Albright as well.
    It seems to me that was a part of the debate we had on the 
floor of the Senate last year, that being can we do more to 
reduce tactical nukes, are we not putting ourselves at a 
disadvantage because of the Russian arsenal? So my 
interpretation of what they're doing is following through on 
the promises and the commitments that were made in the Senate 
and by our nuclear arms experts to continue to pursue ways to 
meet that concern.
    Would you each care to comment?
    Dr. Perry. I think in my judgment an important goal of any 
follow-on treaty to New START would be to address the tactical 
nuclear weapons issues. This will be a very difficult issue to 
address because of the tremendous asymmetry between the United 
States and Russia in that case, the asymmetry being not only in 
the number of tactical nuclear weapons possessed--we have a few 
hundred, they have a few thousand--but in the asymmetry in the 
threat perception. The United States does not perceive any 
threat from our immediate neighbors, Canada and Mexico, whereas 
Russia perceives significant threats from several countries to 
the south of them, and their tactical nuclear weapons are 
directed to those threats.
    Therefore, because of this asymmetry it's going to be very 
difficult to address that issue, but I think important to 
address it.
    The other problem that we would have with such a treaty is 
that in strategic nuclear weapons we have verified agreements 
we have made by verifying the missiles themselves, which are 
quite easy to verify, relatively speaking, but in tactical 
nuclear weapons we don't have that database to begin with. We 
don't even know, to begin with, how many tactical nuclear 
weapons they have. So the verification issue is going to be 
very difficult. It's going to involve a much higher degree of 
intrusive inspections than we've ever had in the past.
    Senator Udall. Dr. Miller?
    Dr. Miller. If I could just confirm that you are accurate 
in your recollection. Declaration No. 11 of the Senate 
resolution of ratification calls upon the President to pursue, 
following consultation with allies, an agreement with the 
Russian Federation that would address the disparity in tactical 
nuclear weapons; and later on, just as Dr. Perry suggested, 
suggests taking steps to look to improve transparency and 
improve confidence in numbers as well.
    So that is an important objective, just as the Senate, as 
Dr. Perry, as the National Security Advisor, has said. At this 
point we believe that the most effective way to pursue that is 
likely to be seeking a combined agreement that looks at overall 
numbers, including deployed and nondeployed, strategic and non-
strategic or tactical. That is not a final decision, but that's 
certainly the approach that we have looked at to date.
    Senator Udall. I may be misinterpreting what I've heard, 
but it strikes me as a little strange that those who had 
concerns about the treaty, those who may have even, in fact, 
voted against the treaty, would be critical of attempts to 
begin to undertake this important mission to reduce the number 
of tactical weapons. I wouldn't ask you all to comment on that. 
That's an opinion I'm expressing. But it seems to me that the 
administration is keeping faith with those promises that were 
made to begin to do this important work.
    I think my time is about to expire, but I want to ask 
General Kehler just a quick question about the heavy bombers. 
Under the previous START treaty, literally we take them apart, 
as I understand, even cutting the fuselages in half. I don't 
know if that's on the long axis or the short axis. It probably 
doesn't matter. Either way, they don't fly very effectively 
after that.
    The New START treaty recognizes legitimate non-nuclear 
missions and allows for the bombers to be made non-nuclear 
capable. I think maybe that's the term that's used. Can you 
describe the methods by which the aircraft are modified so they 
are not able to carry nuclear weapons, and does that restrict, 
those modifications, the uses for the airplane in other 
missions and in other capacities?
    General Kehler. Senator, you have to think about the heavy 
bombers, I think, in three contexts. There are those that are 
in the boneyard, essentially, that we don't want to have 
counted against any limits in the treaty, and that we will just 
take destructive measures to deal with.
    Then there is a category of heavy bombers that will be 
dual-capable, nuclear-capable bombers that will also be 
available for conventional missions. Then there is a category 
that we will not have nuclear-capable at all, but will be 
available for conventional purposes. That's the category I 
think you're talking about, and in that case we will propose 
for our own compliance review group a series of steps that we 
would take that would make it clear that the bomber was not 
capable of carrying or delivering nuclear weapons, but still 
retained its full capability as a platform to deliver 
conventional weapons, to include precision guided weapons that 
are conventional.
    So we haven't gotten to the complete end of that string yet 
about approvals to represent it that way with the Russians. 
That's pending and we believe we have a good way to do that 
that still allows them to be capable for conventional missions.
    Senator Udall. Thank you for that explanation.
    Thank you, Mr. Chairman.
    Dr. Miller. Senator, if I could just add very briefly, just 
to divide that last part into two different parts. As General 
Kehler said, we're not at the end of the process yet. In 
particular for the B-52Hs that would be converted to 
conventional only, which we plan to do, we are still working 
through exactly how that will be done and have not yet done an 
exhibition of that to the Russians.
    We did do an exhibition of the B-1B bomber because we have 
been, as General Kehler knows well, undertaking conversions of 
those to conventional for some time. That first exhibition of 
the B-1 bomber, that will allow them to be non-accountable, 
occurred just a few weeks ago.
    Senator Nelson. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all very much for being here. I'm sorry I missed 
your statements, but I do want to begin by--I'm sure you 
probably referred to this--but by congratulating all of you on 
your role in passage of the New START treaty. It was an 
extensive debate in the Senate. I think finally we were able to 
get the bipartisan support that was required.
    It was interesting to me that after support from virtually 
every living Secretary of State and Secretary of Defense from 
both sides of the aisle, that it took us so long to get 
agreement on the treaty. But it's there and I'm delighted and 
appreciate that now we have new challenges as we begin to 
implement it.
    There was a lot of discussion during that debate about the 
importance of getting the treaty passed so that we could again 
resume on-the-ground inspections. Again, I apologize if you've 
already talked about this in your opening testimony, but can 
you talk about--I understand the first of these inspections was 
done in April, and I wonder if you could speak to what we've 
learned from that inspection. Were there any surprises or did 
it go about the way we expected?
    Dr. Miller. Senator Shaheen, first thank you for your words 
about the New START treaty.
    The first U.S. inspection was undertaken in April. It was 
of an SS-19 base, which is a MIRVed ICBM that's kept in silos. 
I think that I can say that the inspection went about as 
expected, and I think in an open session, given our 
expectations about what's discussed in inspections, that that's 
about all I should say.
    I will also note that we've exchanged databases, we've had 
the first meeting of the Bilateral Consultative Commission to 
work through the process through which any future debates would 
be resolved with respect to inspections.
    But I think with respect to this one inspection that's 
probably all I should say.
    Senator Shaheen. General?
    Senator Nelson. Senator Shaheen, by prior agreement, Dr. 
Perry has to leave at 3:15 p.m. and we're going to give him 5 
minutes to summarize anything that he'd like to say. He has to 
catch a plane. So if you suspend just for a minute, we'll 
finish that.
    Senator Shaheen. I'm happy to do that. I'm pleased that Dr. 
Perry's here.
    Dr. Perry. First of all, I must apologize. I must apologize 
for this restriction. When I was Secretary of Defense, the 
answer to the question, when does the plane leave, is when I 
get there. That's not the answer any more, so I need to be 
there, and I have to give a talk tomorrow morning in 
California.
    I want to make a few comments, though, in wrapping up, and 
pointing out that the threats of nuclear weapons to the United 
States today are in two very different categories. One is the 
threat that the nuclear weapons could be used by a terror group 
against us. So the proliferation and nuclear terrorism is one 
set of threats, and dealing with that set of threats takes a 
certain set of actions.
    In addition to that, we are not yet able to dispense with 
deterrence. So we have two different requirements we have to 
meet: maintaining deterrence while at the same time working to 
decrease this threat of proliferation and nuclear terrorism. So 
we have to have a balance in dealing with those two.
    That has been recognized, I think, since the end of the 
Cold War. The policy that we had in the Clinton administration, 
which was really followed before that and since then, but not 
by the same name, was called ``Lead But Hedge.'' We lead in the 
reduction of nuclear arms, we lead in programs to prevent the 
proliferation, but we hedge against adverse political 
developments by maintaining our deterrence.
    That policy was strongly reaffirmed in the NPR. The 
Strategic Commission which Keith Payne and I were both on, also 
reaffirmed that, but that was prior to the NPR. I must say I 
think the NPR got it just right. It said the U.S. goal was to 
reduce nuclear weapons, but we will not do it unilaterally, we 
will maintain deterrence.
    Secretary Miller can tell you, but I can also affirm, that 
the President was intimately involved in this NPR and these are 
his goals, not just the goals of the people who wrote the 
report.
    The hedging has been achieved, I think, very effectively. 
We have stated that we're going to maintain a safe, secure 
deterrence and we're going to do that without building new 
weapons. We're going to strengthen the scientific program at 
the three laboratories and that is being done. We're going to 
rebuild the nuclear infrastructure. That is being done. Very 
substantial requests for appropriations are in for doing that 
right now.
    We have said we were going to increase the stockpile 
stewardship program, which has been a great success to this 
date, but is in danger of deteriorating. So the increased 
funding of that was very important. We said we're going to 
increase the emphasis on the life extension program.
    Those are all commitments that were made in the NPR. Those 
are substantial commitments, and in my judgment they are being 
carried out, with the support and enthusiastic support, I might 
say, of the U.S. Congress. So I think we are striking that 
balance. But I would say again that part of the balance is 
leading on this reduction of nuclear weapons and the move to 
deal with proliferation and nuclear terrorism. I think that is 
very important also.
    So we cannot debate this issue by looking at just one of 
these goals. We have to look at both of them at the same time 
and understand that sometimes they're in conflict and we have 
to strike a balance between them. In my judgment, we have done 
a very effective job, the administration has done a very 
effective job, of striking that balance, and I think in as much 
as the NPR states clearly and explicitly the goals of the 
administration I think that is the proper test of how they're 
doing.
    You then have to see, are they following up on the 
commitments in terms of their requests for support? I believe 
that the requests for support in this field that went in with 
this last budget does just that, and now it's up to Congress, I 
think, to pass those requests. From what I hear, I think 
Congress is likely to do that.
    So I'm feeling very good at this stage about meeting these 
two goals, the lead on the one hand, which I think the 
President is doing very effectively, but still maintaining that 
hedge, still understanding this is a dangerous world and we 
have to maintain the deterrence of a nuclear force.
    Other people can testify better than I how well we're doing 
that. We have General Kehler here today and he can tell you 
whether or not he feels confident that we're maintaining our 
deterrence in the face of these changes.
    I very much appreciate the opportunity to speak with this 
committee. I apologize again for my needing to leave a little 
early.
    Senator Nelson. No need to apologize. We're mindful of your 
time constraints and thank you so very much; not that you need 
to be, but you are excused.
    Dr. Perry. Thank you very much.
    Senator Sessions. Dr. Perry, thank you for your work and 
leadership on the Posture Commission and for your commitment to 
the United States.
    Dr. Perry. Thank you, Senator Sessions. Questions on the 
Posture Commission as they come up in the latter part can be 
answered very ably by Keith Payne, who is a very close 
colleague of mine and we worked closely together on the Posture 
Commission. Thank you.
    Senator Nelson. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you.
    I think, General Kehler, you were about to also respond to 
my question about the inspections.
    General Kehler. I was, Senator. Let me just make two 
points, if I could. First is, the debate that you described, 
the conversations on the nuclear issues, were also noted in 
Omaha. I can tell you that across STRATCOM the feedback that I 
get is that they very much appreciate the fact that these 
issues are getting national attention. So I think that was a 
point that was not lost on them and they're very appreciative 
of that fact.
    Second, I would just expand on what Dr. Miller said. We are 
committed to implementing the New START treaty. There are many 
steps that are already under way. We have less than 7 years 
already, not a lot less but under 7 years, to bring all of the 
pieces together. Since the treaty entered into force on the 5th 
of February, we have done the following things.
    Dr. Miller mentioned we've done the first New START 
database exchange. He also mentioned we've done a required 
exhibition of B-1 bombers. There has been a required exhibition 
of the Russian road-mobile SS-27 ICBM and launcher. There has 
been a required exhibition of our B-2A bomber and, as he 
described, the first of the U.S. New START onsite inspections. 
In this case, the Russian SS-19 at Kazelsk has also been 
accomplished.
    There's a lot more to do, but I did want to let you know 
that there is a full range of activities that are already under 
way in implementing New START.
    Senator Shaheen. Thank you. I know that we have until 2018 
to bring our nuclear force structure into compliance with the 
treaty limits. Is there the possibility of moving up that 
timetable in any way?
    General Kehler. Senator, from my perspective we are right 
now working with the Office of the Secretary of Defense and the 
Joint Staff to point together and finalize our plans for what 
our force mixture will look like as we implement the New START 
treaty. The 1251 report that was submitted to Congress back in 
the fall and updated again in the fall describes a baseline 
force structure that has a certain number of submarine-launched 
ballistic missile launchers associated with it, up to a certain 
number of ICBMs, up to a certain number of bombers.
    We are now working our way through how do we make those 
balances and tradeoffs in that mixture. We expect that 
something will go to the Chairman here in the not too distant 
future. Some of the precursor steps in order to do those force 
structure--to execute those force structure decisions, like 
going to single-warhead ICBMs, we will have to, in a budgetary 
sense anyway, get going sooner rather than later so that we can 
have all the pieces in place.
    So I think what you will see as we sequence these steps, 
that some things will actually have to begin sooner simply 
because it will take us a certain number of years to cycle 
ballistic missile submarines through the wharves, to handle the 
weapons, do the things that we're going to need to do.
    Dr. Miller. Senator, if I could just briefly add to General 
Kehler's excellent, accurate response, two thoughts. One is 
that once that timeline is defined the United States under the 
terms of the treaty, as will Russia, will have flexibility to 
mix forces should that be required because of a problem in one 
leg or another of the triad--one of the advantages of 
sustaining the triad, as we intend to do under the treaty.
    The second is I wanted to explicitly acknowledge that the 
administration remains cognizant of the Senate resolution of 
ratification, its Declaration No. 5, and it talks about 
asymmetry in reductions and directs that the President should 
regulate reductions such that no strategic imbalance endangers 
the national security interests of the United States. So as we 
look at this we'll also assess the likely timeline and path for 
Russian reductions as well.
    Senator Shaheen. Thank you.
    My time has expired, but I actually have to say I was 
pleased, but a little surprised, to hear how optimistic Dr. 
Perry was about the commitment to continue to fund all of the 
requirements for our nuclear arsenal. I'm not quite as sanguine 
as he is about the continued commitment of Congress to do that, 
given the current budget debate that we're having. So I may get 
some time later to ask you to comment on that, but thank you.
    Senator Nelson. Thank you, Senator.
    Some critics of the administration have suggested that the 
administration's primary goal is getting to zero nuclear 
weapons and that this is a shift away from the lead-hedge 
tradition which we just heard Dr. Perry reference and the need 
to maintain deterrence. Dr. Payne, do you see the 
administration continuing with the lead-hedge tradition or not?
    Dr. Payne. I do. For example, my friend Dr. Miller has 
provided the NPR of 2010 which I think in general is a very 
commendable document. It certainly reflects a continuing 
commitment to the goals of deterrence, assurance, limited 
defense, and extended deterrence.
    On the other hand, it's true that concern has been raised 
with regard to other voices in the administration which seem to 
subordinate those traditional goals to the goal of nuclear 
reductions. Senator Sessions quoted National Security Advisor 
Donilon's announcement of the forthcoming reviews. We should 
note that National Security Advisor Donilon stated specifically 
that the forthcoming nuclear reviews are for the purpose of 
finding further U.S. nuclear reductions. Other senior 
administration officials have similarly described the purpose 
of these reviews as being to facilitate nuclear reductions on 
the journey toward nuclear zero.
    In addition, the administration itself has said that, ``for 
the first time''--and that's a quote--``for the first time,'' 
it places atop the U.S. nuclear agenda nonproliferation as an 
element moving toward nuclear zero. So this isn't a concern 
that comes out of imagination. It's a concern that comes 
directly out of the way these goals have been described by some 
administration officials on some occasions.
    So I conclude that what we see is in a sense two competing 
dynamics within the administration regarding the prioritization 
of U.S. goals and the calculation of force requirements. One, 
as is well and ably presented by Dr. Miller, is committed to 
sustaining effective strategic capabilities for deterrence, 
assurance, extended deterrence, and limited defense. The other, 
however, appears to place top priority on arms control and 
movement towards nuclear zero in the calculation of force 
adequacy.
    I should note, as Secretary Perry noted earlier, 
reconciling these two dynamics will be very difficult and 
ultimately impossible. So the fundamental question, I think, 
that we're presented with--and Senator Sessions identified this 
early in this discussion--is with regard to the 
administration's nuclear reviews, which of these two different 
views or dynamics with regard to U.S. priorities and 
requirements will dominate?
    My concern and the concerns that have been raised by others 
who see these competing priorities is that the goal that places 
priority--or I should say, the approach that places top 
priority on movement towards nuclear zero and other arms 
reductions will dominate those considerations and by definition 
subordinate these other goals that have been consistently 
supported by U.S. Democratic and Republican administrations for 
5 decades.
    Senator Nelson. General Kehler, from your perspective are 
you satisfied that the movement is in the right direction in 
terms of reduction, and are you concerned that the 
administration will then begin on its own to reduce the number 
of warheads unilaterally?
    General Kehler. Sir, I would make two points. The first is, 
on the force levels that are described in the New START treaty, 
I don't have any concerns with those force levels at all. I 
think that Dr. Miller earlier described STRATCOM's role in this 
entire process and our role really is at the right-hand side of 
the process. If it starts on the left with presidential 
guidance, that's refined by both the Secretary of Defense and 
the Chairman. STRATCOM takes that guidance and does mission 
analysis, and at the end of that mission analysis process we 
are able to articulate what from our military perspective we 
believe are the requirements for both force capability and 
force capacity.
    Based upon the guidance that was used to arrive at the New 
START treaty, I have no concerns whatsoever. I believe that, 
given that guidance, that we are capable of achieving our 
deterrence objectives. I think that remains our role as we go 
forward. Our role will be to examine alternative guidance 
packages, if you will, and perform the same kind of mission 
analysis on those, to describe from our military perspective 
what the implications of various guidance alternatives might 
be.
    I do see that as our rightful role in the process. I am 
fully expecting that we will be involved as deeply in this 
process as the command was in the New START discussions and as 
it was in the NPR itself. The preliminary, although we haven't 
seen any official taskings, discussions that we've had with Dr. 
Miller's office and others lead me to believe that our advice 
is going to be sought.
    Senator Nelson. Dr. Miller?
    Dr. Miller. Mr. Chairman, I will just state for the record 
General Kehler and STRATCOM's advice is being sought and that 
will continue to be the case.
    Senator Nelson. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you.
    Dr. Payne, National Security Advisor Donilon in this speech 
said that ``The New START treaty represents a commitment by the 
world's two largest powers to the goal of disarmament.'' Do you 
think the Russians, by signing this treaty, in any way 
evidenced an inclination to go to disarmament? How would you 
assess the state of the Russian mind?
    Dr. Payne. I would suggest that, based on the various 
statements from senior Russian officials and senior military 
officials, both in the lead-up to New START and following the 
ratification of New START, that the chances of the Russians 
agreeing to nuclear disarmament are so close to zero that we 
might as well call them essentially zero.
    They identify, that is Russian senior officials, both in 
the military and on the civilian side, the great value they 
continue to place in nuclear weapons, including for what we 
would call here warfighting purposes. They have said 
specifically that because their conventional forces are in poor 
shape and not likely to get into better shape for many years to 
come, that they are deeply reliant on nuclear weapons for their 
security, and in fact virtually all of the senior Russian 
officials who have commented--I may have missed some--virtually 
all of the senior Russian official comments that I've seen with 
regard to the future of tactical nuclear weapons and reductions 
of tactical nuclear weapons have in a sense said they're not 
interested in moving in that direction and certainly not in any 
time soon.
    Senator Sessions. I'm sure the administration raised it in 
the New START negotiations and they faced a stone wall because 
the Russians refused, and so we acquiesced and focused on the 
strategic.
    Dr. Miller, on what basis does the President's National 
Security Advisor conclude that the New START treaty represents 
a commitment to disarmament?
    Dr. Miller. Senator Sessions, if you look at the preamble 
to the treaty, it notes both parties' commitment to nuclear 
disarmament over the long term. I think it's fair to say that 
the reductions in nuclear warheads, in deployed nuclear 
warheads and strategic delivery vehicles, represent a step in 
that direction.
    Senator Sessions. I will just say if the President had said 
to the U.S. Senate, the New START treaty is a start toward 
disarmament, I guess it would have caused more concern than we 
had. This does not strike me as a wise approach and it is part 
of the concern that I have as we wrestle with these very 
important issues.
    I do feel like that President Bush, George W. Bush, our 
recent President Bush, unilaterally drew down nuclear weapons 
substantially. He did not do that pursuant to a treaty, but he 
made clear he was going to a level, as I understood it, he 
thought was sufficient for our national security and that we 
were free to take other action, if necessary, to strengthen 
that capability to protect our national security. So I'm just 
worried about this trend.
    Dr. Payne, there are other players in the world other than 
Russia. One of the problems we have is that as we draw down our 
weapons, it seems to me that China may have an incentive to 
seek equivalence with the United States, nuclear parity with 
the United States, as might other countries, frankly. According 
to the report of the Strategic Posture Commission, the Chinese 
have some 400 nuclear warheads in their arsenal, and according 
to DOD China deploys 60 long-range ballistic missiles capable 
of targeting our Homeland.
    How can we know with any certainty how many nuclear weapons 
the United States needs to maintain in order to disincentivize 
China to seek nuclear parity with the United States? Is that a 
concern?
    Dr. Payne. Senator Sessions, that's one of the very 
difficult questions that confronts us in all of these areas of 
deterrence and assurance of allies: how do we know what's going 
to be necessary 5 years from now or 10 years from now; what 
will it take, for example, if the occasion arises to deter 
China or to assure an ally?
    That's why in my view--and I know General Kehler concurs 
with this and I suspect that Dr. Miller does as well--that 
retaining the flexibility of our force to adapt to changes and 
the resilience of our forces and force structure to adapt to 
changes is so important.
    I guess the conclusion that I draw on that is no one can 
give you a number right now and give you any kind of confident 
prediction that this number will be enough to deter 10 years 
from now or to assure allies 10 years from now, for the simple 
reason that threats change and opponents change and conditions 
change. So the requirements for deterrence and assurance 
similarly shift and change, and so our force structure needs to 
be agile and resilient and flexible enough to change with the 
changing threats.
    Senator Sessions. Isn't it true that other nations depend 
on the U.S. nuclear umbrella, that there is a political, 
psychological dimension to clear and strong nuclear capability, 
and that as a member of the Posture Commission you were able to 
ascertain that nations around the world who don't now have 
nuclear weapons, good civilized nations, become concerned as 
the United States draws its weapons arsenal down too low?
    Dr. Payne. Yes, sir. What the Posture Commission learned 
through a whole series of briefings by senior officials from 
abroad is that they place enormous value on the U.S. extended 
nuclear umbrella, and that umbrella is provided for some 30 
countries, allies in NATO, Japan, South Korea, Australia, and 
so on.
    So what we learned through that exercise was the high 
priority that these countries place on the U.S. extended 
nuclear deterrent for their security, and a number of them 
suggested to us that they are beginning, were at that time 
beginning, to be concerned about the credibility of the U.S. 
extended nuclear umbrella and were potentially concerned that 
if we drew our forces down too far that the credibility of that 
extended nuclear umbrella would no longer be sufficient in 
their eyes. Some of them even suggested if that were the case 
they were going to have to reconsider their commitment to being 
non-nuclear states.
    I should add that we've heard subsequently senior voices, 
for example, in Japan have said that the threshold at which 
point they start becoming very worried about the credibility of 
the U.S. extended nuclear deterrent is if the United States 
starts moving down to around 1,000 nuclear warheads. So it 
strikes me that the number that the New START treaty provides 
of 1,550 is well above that. But when we start looking at 
numbers that go potentially well below that, we will be 
potentially jeopardizing the credibility of our extended 
nuclear deterrent, as judged by our allies, and they are the 
ones who judge that.
    Senator Sessions. The perverse consequence of too much 
reduction could actually be a proliferation of nuclear weapons 
in other countries that previously did not feel the need to 
have them.
    Dr. Payne. Yes, sir. I think it's widely recognized that 
the U.S. extended nuclear umbrella, extended deterrence, is one 
of the most important tools for nonproliferation, and to the 
extent that it is degraded or rendered less credible we would 
actually be promoting nuclear proliferation, which obviously 
runs against one of the highest goals of the Obama 
administration.
    Senator Sessions. Dr. Miller, briefly, you wrote in your 
March 2, 2011, House testimony that: ``The lack of transparency 
surrounding China's nuclear program, their pace and scope, as 
well as the strategy and doctrine that guide them, raise 
questions about China's future strategic intentions.'' As we 
deal with the proper level of nuclear weapons, don't we need to 
consider also what may be in China's plans for the future?
    Dr. Miller. Senator Sessions, let me divide the answer into 
two parts. One is about numbers, which you mentioned earlier, 
and one is about their doctrine and so forth.
    With respect to numbers, the United States and Russia still 
have 90 to 95 percent of nuclear weapons in the world and that 
will still be the case after the New START treaty is 
implemented. We unclassified about a little over a year ago the 
number of nuclear weapons in the U.S. stockpile, as of now 
almost a year and a half ago. It was 5,113 in the stockpile 
plus several thousand awaiting dismantlement. Russia is broadly 
in the same ballpark.
    If the numbers cited about China are correct--and I won't 
say in this forum what the best estimate is from the 
Intelligence Community--if those are correct, we're 10 times 
plus above, and we have not seen anything approaching a rush to 
parity. Instead, we've seen action by China that's consistent 
with their stated doctrine of wanting to have the ability to 
deliver in a second strike a relatively limited number of 
nuclear weapons.
    The second part, with respect to transparency----
    Senator Sessions. You say there's a lack of transparency as 
to their pace and scope. I don't know how you can be so 
confident, with that testimony.
    Dr. Miller. I think if we look out--sir, that's the second 
part, exactly. If we look out from today into the future, today 
we would like to understand more about their doctrine. It's 
true for nuclear, it's true for space and cyber space as well, 
and we've asked for a strategic dialogue with them on these 
issues.
    As we look to the future and try to understand where they 
might be going, I think that uncertainty grows and our ability 
to go forward certainly beyond any next round will depend in 
significant measure on what China does.
    Senator Sessions. Thank you.
    Senator Nelson. Senator Shaheen.
    Senator Shaheen. Thank you.
    Dr. Miller, the administration, though, has always said 
that we'll maintain a strong deterrent as long as nuclear 
weapons exist, right? That's been one of the pillars of this 
administration's nuclear policy. While I appreciate the 
dichotomy that's been talked about, in fairness that has been 
one of the things that the President has said from the very 
beginning; is that right?
    Dr. Miller. Senator, that's correct, a safe, secure, and 
effective nuclear arsenal as long as nuclear weapons exist. I 
also should add that that applies not just to deterrence of 
attack on the United States, but to deterrence of attack on our 
allies as well. We have consulted very closely with our allies 
during the NPR and during the New START treaty and have, in 
fact, established some new bilateral dialogues with allies to 
have discussions about both nuclear deterrence and broader 
elements of deterrence, to ensure that we sustain the effective 
extended deterrence and assurance of our allies.
    Senator Shaheen. I know that you mentioned that NATO is 
soon going to undertake its deterrence and defense posture 
review. Can you give us some insight into what we would like to 
see NATO come out with as part of that posture review process?
    Dr. Miller. Senator, let me first note that the deterrence 
and defense posture review is starting from the premises 
outlined at the NATO summit, and that includes that NATO will 
remain a nuclear alliance as long as nuclear weapons exist. So 
that therefore the purpose of the deterrence and defense 
posture review, is to examine the appropriate mix of nuclear, 
conventional, and missile defense capabilities.
    So what we would like to do is to ensure that as that takes 
place that we have the continued principles that have been at 
the foundation of the alliance, including risk-sharing and 
burden-sharing, as foundational elements of where we go, and 
that, just as is the case for the targeting assessment that 
we've talked about, that we look--while we could look at 
changes in posture, that we fundamentally look at what's 
required for effective deterrence and assurance as well.
    Senator Shaheen. As NATO engages Russia in some of these 
discussions, what's been the reaction from our allies in the 
Eastern European countries?
    Dr. Miller. NATO in general and including the Baltic States 
and Eastern European countries have been particularly concerned 
about gaining more transparency on the status of Russian 
tactical nuclear weapons and to ensure that those weapons are 
under the safest possible security arrangements. So what we've 
seen in discussions with our allies is encouragement to look to 
initial steps following New START, even prior to considering 
reductions that aim at increased transparency, and that 
continue some of the efforts at improved security that, in 
fact, the Senate and Congress have supported over the years, 
including through the Nunn-Lugar program.
    Senator Shaheen. Thank you.
    General, do you want to add anything to that?
    General Kehler. Senator, I would just offer that we 
understand the relationship between our strategic weapons and 
the requirements of extended deterrence. We understand that not 
only the NATO alliance, but other friends around the world, do 
rely on that, and we are mindful of that as we go about our 
force planning.
    Senator Shaheen. As we're looking at the future of arms 
control and thinking about China, for example, as Senator 
Sessions mentioned, and what's happening there, have we begun 
to engage them at all in the debate about arms control and how 
they might fit into that, whether they might be willing to 
consider engaging in arms control talks at any point in the 
future?
    Dr. Miller. Senator Shaheen, we see that, for nuclear arms 
control, we see an appropriate next round to be bilateral 
between the United States and Russia, given that we, as I said, 
account for 90 to 95 percent of nuclear weapons in the world, 
even after New START. We have often expressed an interest to 
have discussions with China sooner rather than later, as 
Senator Sessions referred to, to particularly look at 
transparency and to understand how they think about planning, 
how they think about doctrine, and to have a better sense of 
where they intend to go also with respect to numbers in the 
future.
    We've seen some signs that the Chinese may be open to 
strategic dialogue in general and I hope that the nuclear issue 
will be one of those that they pick up on.
    General Kehler. If I could add to that, my predecessor last 
fall had a counterpart visit in Omaha with one of the senior 
Chinese defense officials. We would like to see greater 
military-to-military contact. Of course, Secretary Gates was in 
China in January and approached that same issue. We have 
invited Chinese representatives at lower levels in their 
military structure to come and participate in our public 
deterrence seminars, for example, and we will do so again this 
year.
    But we would like to see greater contact, certainly at the 
military level, with the Chinese. There are some questions 
about their intent. We are supposed to look at capabilities and 
it's very hard to understand their capabilities on the surface 
if you don't understand the intent that goes behind it.
    Senator Shaheen. This is a topic that I haven't heard 
raised since I've been here this afternoon. Has there been any 
reaction from Iran upon the passage of the New START treaty? 
Have they responded to that? From anybody on the panel?
    Dr. Miller. Senator Shaheen, I have not seen any such 
reaction. I recall an Iranian reaction to the NPR, which, as 
you recall, for nuclear doctrine it essentially eliminated what 
we described as the Iran loophole. So that if a country's not 
meeting its obligations under the Nuclear Nonproliferation 
Treaty, then our so-called negative security assurance doesn't 
apply. They noted that that appeared to affect their posture. 
From our perspective of encouraging them to meet their 
obligations, I think that was a positive thing, that they 
noticed.
    Dr. Payne. I can add to that, Senator Shaheen, that one of 
the most recent statements that I've seen coming out of Teheran 
was to suggest that the current events in Libya show what a 
mistake it was for Libya to give up its weapons of mass 
destruction, and the leadership in Teheran says: We take note 
of that.
    Senator Shaheen. Thank you.
    Senator Nelson. Thank you, Senator.
    Senator Shaheen mentioned, and so did my colleague, Senator 
Sessions, about engaging in conversations with China about 
nuclear reduction. Given the situation with Pakistan quite 
apart from the events of this week, but the fact that they're a 
nuclear power and things are less stable in Pakistan, would it 
be appropriate for us to begin to engage in discussions there 
with Pakistan about nuclear reduction? Or would we have to do 
it in conjunction with Pakistan, India, and the United States?
    Dr. Miller, do you have any thoughts about that?
    Dr. Miller. Mr. Chairman, we have offered any assistance 
that Pakistan might desire with respect to our approach in 
thinking about the most effective means for strategic of 
nuclear weapons. I don't believe that we've ever suggested that 
we should at this point include them in any arms control 
negotiations.
    Senator Nelson. Is there a particular reason not to or is 
it just it doesn't seem to be the time?
    Dr. Miller. Mr. Chairman, I think that in order to look to 
take additional steps in the coming years, we've made the 
judgment that it makes sense to look to, for any formal arms 
control, a bilateral step that would follow a New START.
    I might note that, if I recall correctly, that the Posture 
Commission also recommended an initial first step, given that 
the START treaty was expiring, and then to look for further 
steps after that. We think that more--once you go beyond that 
point, we need to deal with the questions of the security of 
nuclear weapons globally, the global lockdown that President 
Obama has talked about, has more than talked about, has 
advocated and acted on with the nuclear security summit and our 
follow-on activities. Our real focus in the near-term in that 
regard is to ensure the security of nuclear materials worldwide 
and to have as much possible, and indeed all, fissile materials 
under the safest possible arrangements.
    Senator Nelson. You raise a good question about the 
security discussions and offers of assistance on the security 
in Pakistan. On a congressional delegation I think in late 
2001, I asked President Musharraf how confident he was that 
they had the security of all their nuclear weapons under 
control. After a little bit of thought, he said: ``95 
percent.''
    So he remembered that, that discussion. So after when we 
had the unfortunate occasion of flying nuclear weapons all over 
the United States unknowingly, the next time I saw him he asked 
me how confident I was that we had our nuclear armaments, 
nuclear force, under control. I said: ``96 percent.'' 
[Laughter.]
    But in working on this issue, I think the question that is 
out there that's bothering my colleague, Senator Sessions, and 
some others is, is there a plan to just unilaterally bring our 
numbers down without regard to a bilateral agreement with our 
Russian counterpart? I think that is the question.
    Apparently, Mr. Donilon's comments may have obviously 
helped trigger this question, but would it be possible to get a 
statement somewhere along the way that would clarify what his 
speech was about, because that seems to be what the issue, what 
has triggered the issue at the level that we're dealing with it 
right now?
    I think we're seeing assurances, we're hearing assurances, 
and I understand that, but there is written documentation out 
there that seems to be leading in another direction and causing 
maybe undue concern, but we don't know that it's undue, and 
that's, I think, what's truly my colleague's concern.
    Dr. Miller?
    Dr. Miller. Mr. Chairman, I will want to state that I read 
and heard the National Security Advisor's speech differently 
and I found it entirely consistent with what we had said in the 
NPR and the idea that we would conduct analysis first of how to 
sustain effective deterrence and assurance and then look to 
associated numbers. I will take back the question that you've 
asked, however.
    [The information referred to follows:]

    The Nuclear Posture Review (NPR) stated that we would pursue 
additional reductions in strategic and non-strategic nuclear weapons 
with Russia and that U.S. objectives in future negotiations with Russia 
will be based on several factors that together will strengthen: 
deterrence of potential regional adversaries, strategic stability with 
Russia and China, and assurance of our allies and partners. This will 
require an updated assessment of deterrence requirements.
    Thus, Mr. Donilon's statement that the Department of Defense's 
review of U.S. strategic requirements will help shape our negotiating 
approach to the next agreement with Russia is consistent with the 
administration's previously stated approach in the NPR.

    Senator Nelson. Let's see. I think next would be Senator 
Sessions.
    Senator Sessions. I think the National Security Advisor's 
comments were troubling. I don't think they can be blithely set 
aside. Having just returned from the Baltics and the Ukraine 
and Georgia, Dr. Payne, what we heard was a very unease about a 
concern over tactical nuclear weapons. Apparently, the German 
foreign minister seems to believe that--we should--I don't know 
if it's the position of the government, but the foreign 
minister's view is that tactical nuclear weapons should be 
drawn down in Europe. I got the great concern that ours should 
be drawn down; and that these nations are really worried that 
we might reach an agreement that would make the situation even 
more precarious for them.
    Do you have any thoughts about that, any observations about 
the dynamics of the 10 to 1 or so advantage that the Russians 
have on tactical nuclear weapons?
    Dr. Payne. Yes. The Russian numeric advantage in tactical 
nuclear weapons that you mentioned is of great concern to some 
allies. Other allies are less concerned, but some allies are 
particularly concerned, including allies in the Baltic States. 
This concern, I think, is increased by the Russian position 
that Russia will not agree to, in a sense, negotiations or to 
begin the discussions on tactical nuclear weapons until the 
United States withdraws its nuclear weapons from Europe. So in 
a sense they say, we don't want to start talking about this 
until you've withdrawn yours from Europe.
    Of course, the problem with that is that I believe we have 
very little leverage with regard to the Russians on tactical 
nuclear weapons now. If we withdraw all of our tactical nuclear 
weapons from Europe as the starting-out point of discussions, I 
think that leverage is reduced further. Many of our allies 
understand this, which is why they're concerned both about the 
asymmetry in capabilities and also the Russian demands with 
regard to what would happen before discussions could take 
place.
    Senator Sessions. Do you think it would assuage their 
concerns if the Russians were to drop theirs 20 percent and we 
dropped ours 20 percent, or the Russians said, well, we'll pull 
back our tactical nuclear weapons 300 miles from Eastern Europe 
and not have any there? Would that make them feel any better?
    Dr. Payne. I would refrain from speaking for our allies, 
but I suspect it would not make some of them feel any better at 
all.
    Senator Sessions. In fact, that's what they expressed to 
us, is a concern that there might be some sort of agreement 
reached with the United States and that they would make a token 
reduction or a token pullback, but it would enhance or 
certainly not diminish the advantage they have.
    Now, Dr. Miller wrote about the lack of transparency 
surrounding China's nuclear programs, their pace and scope, as 
well as their strategy and doctrine that guide them. It's a 
plain fact, is it not, Dr. Miller, that the Chinese are playing 
hardball on this? They're not wanting to talk with us. General 
Kehler, they've been willing to come over to the United States 
to some degree and snoop around and see what they can see, but 
they're not inviting us to China to tell us what they're doing, 
and they're being pretty hard-nosed about this, are they not?
    Dr. Miller. Senator Sessions, the Chinese have taken a 
different approach to thinking about deterrence and have 
emphasized historically not transparency, but almost the 
opposite, that for effective deterrence it's useful to have 
uncertainty on the part of the other party. We have attempted 
to make the case that, in fact, stable deterrence and stable 
relations between the United States and China would be 
strengthened by this type of dialogue.
    As I said, while we don't know the answer yet, we've seen 
some positive signs that they will be willing to engage in a 
strategic dialogue that may include this, among other issues.
    Sir, if I could just add very briefly with respect to NATO, 
what we said in the NPR was that any decisions about nuclear 
weapons and NATO would not be undertaken unilaterally by the 
United States, but any decisions would be taken at NATO by 
NATO. That is precisely what is going on as we begin this 
deterrence and defense posture review. It's an opportunity for 
NATO to come together and to have a conversation about the role 
of nuclear weapons--I should put that differently--about how--
what is the appropriate mix of nuclear and conventional 
capabilities to continue to sustain effective deterrence over 
time. The guidance that's come from ministers has explicitly 
stated, just as mentioned in the New START resolution of 
ratification, that any further steps, any steps by NATO, have 
to take account of the disparity with respect to Russia.
    Senator Sessions. Mr. Chairman, thank you for a good 
hearing. Thank you for calling this. You've allowed us to air 
these issues at my request. I feel like you were very 
forthcoming about that.
    These are important issues. I don't pretend to know the 
answers. I know the President, from all his great skill and 
talent, has not had the kind of experience in these matters 
over a period of years. I've been on this committee 14 years 
and I still feel like I'm pretty much a novice, I suppose, to 
it. So his repeated statements about what I consider to be an 
unrealistic goal of going to zero nuclear weapons and his very 
strong desire to have treaties and agreements with Russia, even 
causing, I think, the negotiations to not be as rigorous as I 
would like to have seen with regard to the New START treaty, 
hopefully it doesn't place us in danger. Hopefully the numbers 
are something we can be comfortable with. But I've been uneasy 
about that, and I intend to fulfill what I think my duty is to 
ensure we're thinking clearly, realistically, about the threats 
we face, the nature of the world in which we live. It's not 
where we would like it to be. It is the world that is and we 
have to live in that real world. So I am uneasy about it.
    I will probably submit some written questions, but I to 
date am hopeful that the new funding that the President has 
supported and Congress seems willing to support will put us on 
the road for first time in a number of years to see us 
reconstitute or refurbish our commitments and nuclear 
capabilities. So that's good news.
    I thank each of you for your service to your country very 
much.
    Senator Nelson. Thank you, Senator.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. I don't have any 
further questions, but on the NATO discussion I would like to 
just point out that all of our NATO allies came out very 
strongly in support of passing New START, and one of the 
strongest statements came from Poland. So I think, while I 
appreciate some of the issues that have been raised about next 
steps, I think it's important to point out that they were very 
supportive of the passage of the treaty.
    Thank you all very much.
    Senator Nelson. I want to thank you as well. Thank you, 
Senator Shaheen, for your service and for being here today; and 
just to suggest maybe a clarification that might eliminate any 
confusion that's been raised and discussed during the hearing 
today.
    Thank you all. We're adjourned.
    [The prepared statements of Dr. Miller, General Kehler, and 
Dr. Payne follow:]
               Prepared Statement by Dr. James N. Miller
    Chairman Nelson, Ranking Member Sessions, and members of the 
subcommittee, thank you for the opportunity to testify today regarding 
key nuclear issues. I am pleased to meet with you and to testify with 
the Commander of U.S. Strategic Command, General Robert Kehler; former 
Secretary of Defense, William Perry; and Dr. Keith Payne.
    Just over a year ago, Secretary Gates delivered the 2010 Nuclear 
Posture Review (NPR) Report to Congress. The NPR provides a roadmap for 
advancing the administration's comprehensive approach to reducing the 
role and number of nuclear weapons toward the ultimate goal of a world 
free of nuclear weapons, while sustaining, as long as nuclear weapons 
exist, a safe, secure, and effective nuclear arsenal.
    We have made substantial progress over the past year in 
implementing the NPR; our efforts continue, and the Department of 
Defense (DOD) looks forward to working with Congress to achieve the 
aims set forth in the NPR. I would like to focus today on five areas in 
particular: implementation of the New Strategic Arms Reduction Treaty 
(START) treaty; the revision of presidential guidance; the development 
of plans for next steps in arms control; the North Atlantic Treaty 
Organization's (NATO) Deterrence and Defense Posture Review; and the 
administration's commitment to maintaining a safe, secure, and 
effective nuclear arsenal.
                   implementing the new start treaty
    The New START treaty, which entered into force on February 5, 2011, 
allows the United States to continue to field a credible and flexible 
nuclear deterrent force. The Treaty's limit of 1,550 warheads on 
deployed intercontinental ballistic missiles (ICBM), deployed 
submarine-launched ballistic missiles (SLBM), and accountable nuclear 
warheads for deployed heavy bombers allows the United States to sustain 
effective nuclear deterrence, including sufficient survivable nuclear 
forces for an assured devastating second-strike capability. The 
Treaty's limit of 700 deployed ICBMs, deployed SLBMs, and deployed 
heavy bombers supports strategic stability by allowing the United 
States to retain a robust triad of strategic delivery systems--while 
downloading all remaining Minuteman III ICBMs to a single warhead each.
    Maintaining each leg of the nuclear triad--ICBMs, SLBMs, and dual-
capable heavy bombers--under New START allows us to preserve strategic 
stability and hedge against any unexpected technical problems or 
operational vulnerabilities that may arise in any one leg. The 
administration plans a robust nuclear triad of 700 deployed ICBMs, 
SLBMs, and nuclear-capable heavy bombers under New START:

        <bullet> We plan to retain all 14 Ohio-class SSBNs and deploy 
        no more than 240 Trident II D5 SLBMs at any time.
        <bullet> We also plan to retain up to 420 of the current 450 
        deployed Minuteman III ICBMs, each with a single warhead.
        <bullet> We plan to retain up to 60 nuclear-capable B-2A and B-
        52H heavy bombers, while completing the conversion of all 
        nuclear-capable B-1B and some B-52H heavy bombers to 
        conventional-only capability.

    DOD is currently defining detailed plans for meeting New START 
limits. We will give priority to doing so in a cost-effective way over 
the 7 year implementation period for the Treaty, for example by making 
any necessary changes to Ohio-class SSBNs during their regularly-
scheduled maintenance. The Department is committed to providing timely 
information to Congress as our plans develop further.
    A key contribution of New START is its verification regime, which 
provides a firm basis for monitoring Russia's compliance with its 
treaty obligations while also providing important insights into the 
size and composition of Russian strategic forces. The United States and 
Russia exchanged initial New START databases in March 2011. Required 
notifications for changes in that data, along with routine updates 
every 6 months for the entire database, will allow us to track changes 
in the status of Russian strategic offensive arms covered by the 
Treaty.
    One of the tasks under New START is to remove from accountability 
hundreds of U.S. strategic delivery vehicles that counted under the old 
START treaty. This will be done by a combination of offering 
exhibitions of conventional-only systems including our converted cruise 
missile-carrying SSGNs and the B-1B bomber, and eliminating a number of 
ICBM silos and heavy bombers that are no longer in use. The exhibition 
of the converted B-1B occurred on March 18.
    Both Parties have already completed some Treaty-required 
exhibitions of other strategic systems. The Russian Federation 
conducted an exhibition of the RS-24 road-mobile ICBM and its 
associated launcher in March, and the United States exhibited the B-2A 
bomber in early April.
    The Treaty allows each party to conduct up to 18 on-site 
inspections each year. The United States successfully completed the 
first of these inspections in Russia on April 16. We expect the Russian 
Federation to conduct their first inspection soon.
                           revising guidance
    A key part of implementing the 2010 NPR, as with previous such 
reviews, is the revision of presidential and Departmental guidance for 
nuclear operations and deterrence, and subsequent modification of 
operational plans. That effort is now beginning. In follow-on analysis 
called for in the NPR, DOD will update our assessment of deterrence 
requirements, including analyzing potential changes in targeting 
requirements and force postures. Potential changes will be assessed 
according to how they meet key objectives outlined in the NPR, 
including reducing the role of nuclear weapons, sustaining strategic 
deterrence and stability, strengthening regional deterrence, and 
assuring U.S. allies and partners.
    The analysis of potential revisions to guidance and planning will 
take account of commitments made in the NPR, including:

        <bullet> Fully implementing New START while retaining and 
        modernizing the triad;
        <bullet> ``De-MIRVing'' to single warheads on each ICBM;
        <bullet> Retiring Tomahawk Land Attack Missile-Nuclear while 
        modernizing Dual-Capable Aircraft and their associated nuclear 
        bomb;
        <bullet> Fully funding warhead Life Extension Programs and the 
        associated Stockpile Management Program; and
        <bullet> Making long-deferred investments in the Department of 
        Energy nuclear complex so that it can assure an arsenal of 
        safe, secure, and effective weapons as long as nuclear weapons 
        exist.

    The NPR Report reflects clearly the commitment of the Obama 
administration to ensure that nuclear deterrence remains effective for 
the problems for which it is relevant in the 21st century. We will 
continue to ensure that, in the calculations of any potential opponent, 
the perceived gains of attacking the United States or its allies and 
partners would be far outweighed by the unacceptable costs of the 
response. Effective deterrence requires a credible threat to respond. 
It also requires forces that can put at risk that which a potential 
adversary's decision makers hold dear.
    The analysis will also look at possible changes to force posture 
that would be associated with different types of reductions. It will 
consider possible changes to nuclear deterrence strategies associated 
with changes in the global security environment, as well as the 
potential contributions of non-nuclear strike capabilities to strategic 
deterrence. To be well-hedged against geopolitical or technological 
surprise remains a key priority.
    Every President since the beginning of the nuclear age has asked 
DOD to conduct such analyses and has used that information to inform 
updated planning guidance to DOD. As Commander in Chief, the President 
is responsible for determining what is required to protect the United 
States and our allies and partners, as well as how he wishes the 
military to support deterrence, to prepare for the possibility that 
nuclear deterrence might fail, and for taking steps to restore 
deterrence. Ensuring that our forces are properly sized and configured 
for the real threats of today and tomorrow is a key responsibility of 
any administration.
                planning for next steps in arms control
    As stated in the NPR, the United States intends to pursue further 
reductions in strategic and non-strategic nuclear weapons with Russia, 
including both deployed and nondeployed nuclear weapons. When complete, 
the analysis of targeting requirements and force postures will help 
inform the formulation of any future arms control objectives.
    We intend to consider future reductions in the numbers of deployed 
and nondeployed nuclear weapons, both strategic and nonstrategic, and 
the associated changes in Russian forces and other variables that would 
be required to do so in a manner that supports the commitments to 
stability, deterrence, and assurance.
    The NPR noted that because of our improved relations, strict 
numerical parity between the United States and Russia is no longer as 
compelling as it was during the Cold War. However, it also noted that 
large disparities in nuclear capabilities could raise concerns on both 
sides and among U.S. allies and partners, and may not be conducive to 
maintaining a stable, long-term strategic relationship, especially as 
nuclear forces are significantly reduced. It is therefore important to 
us that Russia joins us in moving towards lower levels.
    Maintaining strategic stability with both Russia and China will 
remain a key priority in the years ahead. We continue to pursue high-
level, bilateral dialogues with Russia and China aimed at promoting 
more stable, resilient, and transparent strategic relationships. Such 
discussions are moving forward with Russia, and we are seeking similar 
discussions with China.
    It is our intention to keep the Senate fully informed about new 
developments in U.S. arms control policy and strategy.
        conducting nato's deterrence and defense posture review
    The 2010 NPR stated that any changes in NATO's nuclear posture 
should only be taken after a thorough review within--and decision by--
the Alliance. We and our NATO allies agreed to conduct a review of 
NATO's deterrence and defense posture at the Lisbon summit last 
December. At that summit, leaders approved a new Strategic Concept for 
the alliance, agreed to update allied capabilities to ensure that 
allies can make good on Article 5 commitments in the face of new 
threats, and rejuvenated the alliance's relationship with Russia.
    The new Strategic Concept repeats the alliance's traditional 
formulation that it will maintain an ``appropriate mix'' of 
capabilities, both nuclear and conventional, for deterrence and 
defense. Allies also endorsed territorial missile defense as an 
alliance mission, thereby reinforcing the interest in determining the 
appropriate mix in current circumstances.
    Accordingly, the primary aim of the Deterrence and Defense Posture 
Review (DDPR) is to determine the appropriate mix of nuclear, 
conventional, and missile defense forces that NATO will need to deter 
and defend against threats to the Alliance and ensure its members' 
security. The review will also consider how political instruments like 
arms control can affect the level of capabilities that will be needed 
in the future and what additional capabilities may need to be created.
    The DDPR will be guided by the new NATO Strategic Concept, which 
states that ``[d]eterrence, based on an appropriate mix of nuclear and 
conventional capabilities, remains a core element of our overall 
strategy,'' and that ``[a]s long as nuclear weapons exist, NATO will 
remain a nuclear alliance.'' The Strategic Concept also notes that the 
Alliance ``will seek to create the conditions for further [nuclear] 
reductions in the future,'' and consistent with Senate language in the 
New START resolution of ratification, that any further steps must take 
into account the disparity between the nonstrategic (tactical) nuclear 
weapons stockpiles of the Russian Federation and of the United States.
    The DDPR report will be prepared by the North Atlantic Council, 
where permanent representatives to NATO will work in close consultation 
with allied capitals to ensure a result that is focused on the 
requirements of maintaining an effective deterrence and defense 
posture. We expect that this review will be conducted over the coming 
year and concluded in spring 2012.
       investing in a safe, secure, and effective nuclear arsenal
    The 2010 NPR highlighted the importance of sustaining a safe, 
secure, and effective nuclear deterrent. The administration's fiscal 
year 2012 budget reflects our commitment to the modernization of our 
nuclear arsenal for the long term, including some $125 billion over the 
next 10 years to sustain our strategic delivery systems, and about $88 
billion over the same period to sustain our nuclear arsenal and 
modernize infrastructure. These are large investments, but essential to 
U.S. national security.
    As articulated in the NPR and consistent with the New START treaty, 
the administration is committed to modernizing the nuclear triad:

        <bullet> Funding began for the Ohio-class replacement SSBN in 
        fiscal year 2010 to support the fiscal year 2019 lead ship 
        procurement. Continued research, development, technology, and 
        engineering investments are included in the fiscal year 2012 
        President's budget request.
        <bullet> The Navy plans to sustain the Trident II D5 missile, 
        carried on the Ohio-class SSBN, through at least 2042 with a 
        robust life extension program.
        <bullet> The preparatory analysis for a follow-on ICBM 
        capability to be fielded in the 2030 timeframe has begun.
        <bullet> DOD will continue to maintain heavy bombers to provide 
        a long-range air-delivered conventional and nuclear attack 
        capability for the indefinite future, including upgrades to the 
        B-2 and the development and fielding of a new long-range, 
        nuclear-capable penetrating bomber starting in fiscal year 
        2012.
        <bullet> In addition, DOD is developing a new dual-capable 
        Long-Range Standoff missile to replace the current air-launched 
        cruise missile in the latter half of the 2020s.

    The NPR identified a number of NNSA nuclear weapons facilities that 
are decades old and must be replaced or modernized to ensure the 
reliability of a smaller nuclear arsenal. Two particularly critical 
facilities are the Chemistry and Metallurgy Research Replacement (CMRR) 
Facility and the Uranium Processing Facility (UPF), which will take 
more than a decade to complete. The CMRR and UPF are in their early 
design phases today; as their designs proceed, we will have more 
accurate estimates of their costs.
                               conclusion
    A key premise of the 2010 NPR--following the advice of the 
Congressional Commission on the Strategic Posture of the United 
States--is that a successful long-term national approach for reducing 
nuclear dangers must be balanced, with movement in one area enabling 
and reinforcing progress in other areas. The approach must also be 
integrated, both nationally--across Federal agencies and between the 
executive and legislative branches--and internationally among a wide 
range of partner governments. An effective approach must be sustained 
over time, with support from a long succession of U.S. administrations 
and Congresses. A balanced, integrated, and sustained approach to 
nuclear policy will require a strong bipartisan consensus. This 
administration has devoted significant time and energy to this effort 
and we are gratified at the many signs of progress in this regard. 
Thank you for the opportunity to testify on these critical issues 
today, and I look forward to your questions.
                                 ______
                                 
           Prepared Statement by Gen. C. Robert Kehler, USAF
    Thank you Senator Nelson, Senator Sessions, and members of the 
Subcommittee for inviting me to join you today to share my views, as 
the Commander of U.S. Strategic Command (STRATCOM), on several issues 
that I believe are important to the security of our Nation, our allies 
and partners, and the world. I appreciate this opportunity to join Dr. 
James N. Miller, Principle Deputy Under Secretary of Defense (Policy), 
in discussing the implementation of the New Strategic Arms Reduction 
Treaty (New START) and the Nuclear Posture Review (NPR). I look forward 
to describing STRATCOM's role in the implementation of these efforts, 
to include the follow-on analysis called for in the 2010 Nuclear 
Posture Review and mentioned by National Security Advisor to the 
President, Thomas E. Donilon, in formal remarks delivered to the 
Carnegie International Nuclear Policy Conference on March 29, 2011.
           u.s. strategic command's nuclear responsibilities
    Before addressing STRATCOM's role in NPR and New START 
implementation, I would like to describe the roles and responsibilities 
that STRATCOM is assigned in the execution of the Nation's nuclear 
strategy.
    STRATCOM is assigned combatant command responsibility for the 
Nation's triad of strategic nuclear deterrent forces: our ballistic 
missile submarines, intercontinental ballistic missiles (ICBMs), and 
nuclear-capable heavy bombers, along with the supporting strategic 
warning, command, control, communications, and planning capabilities. 
STRATCOM operates these responsive, flexible, and capable strategic 
forces 24 hours per day, 365 days per year as directed by the 
President's strategic guidance. While the international security 
environment has changed dramatically since the end of the Cold War, the 
purpose of the nuclear deterrent force remains clear: to deter nuclear 
attack, to assure our allies and friends, and to respond appropriately 
if deterrence fails. The men and women assigned to STRATCOM perform an 
essential, and mostly uncelebrated, service to the Nation. It is a 
service that few Americans think about but all benefit from. As 
Secretary of Defense Robert M. Gates has said, these men and women and 
their partners throughout the Departments of Defense and Energy, 
including the national labs, underwrite the security of the United 
States as well as our partners and allies.
    STRATCOM is also responsible for building the Nation's nuclear 
employment plans. These plans bolster deterrence by providing the 
President with credible nuclear response options to achieve his 
objectives should deterrence fail. All nuclear employment planning is 
performed in strict accordance with planning guidance transmitted to 
STRATCOM in three forms: Presidential guidance, Secretary of Defense 
guidance, and Chairman of the Joint Chiefs of Staff guidance. Each 
level articulates the President's intent in more detail. Once STRATCOM 
receives the totality of guidance, we conduct extensive mission 
analysis to determine the means to achieve the assigned objectives. The 
resulting plans provide the President with an array of executable 
nuclear force options. We also maintain a robust adaptive planning 
capability should circumstances develop in which the President requires 
options not provided in already built plans.
    As the STRATCOM Commander, I am assigned important roles in the 
broader nuclear enterprise as well. I am a member of the Nuclear 
Weapons Council. I am responsible for annually certifying to the 
President the surety of the Nation's nuclear weapons stockpile. I am 
also responsible for advocating for nuclear force capabilities within 
the Defense Department. Lastly, I provide professional military advice 
to the President, the Secretary of Defense, and the Chairman of the 
Joint Chiefs of Staff on nuclear strategy, operations, and weapons 
issues.
    Given the magnitude of these nuclear responsibilities and the 
continuing importance of nuclear weapons in our national security 
posture, STRATCOM's number one priority remains to ensure a safe, 
secure, and effective nuclear deterrent force.
    Of course, the Nation's deterrence toolkit is not limited to our 
nuclear forces. A potential adversary contemplating a military attack 
on the United States or our allies and partners needs to take into 
account the full array of military capabilities at the President's 
disposal. Particularly important are our ongoing efforts to enhance our 
regional deterrence architectures through deployment of ballistic 
missile defenses, advanced conventional precision strike capabilities, 
and improved abilities to counter weapons of mass destruction. STRATCOM 
plays important roles in all three of these areas, and we are fully 
engaged in assisting with the integration of these capabilities in our 
deterrence strategy and posture.
       u.s. strategic command's role in new start implementation
    Let me turn now to the STRATCOM role in implementing New START. 
STRATCOM played an important and integral role in providing analysis 
and advice to the team that developed the U.S. negotiating positions. 
STRATCOM also supported the U.S. delegation when requested throughout 
the talks and provided advice to both the Secretary of Defense and 
Chairman of the Joint Chiefs of Staff. STRATCOM's expertise in nuclear 
strategy, planning, and operations is a unique and invaluable resource.
    New START has now entered into force, and the United States has 
until February 2018--a little less than 7 years--to bring our nuclear 
force structure into compliance with treaty limits. That may seem like 
a long time, but much work must be done, and STRATCOM has a leadership 
role for implementation planning. We are working with the Office of the 
Secretary of Defense, the Joint Staff, and the Services to determine 
how we will implement specific provisions of the treaty efficiently and 
without undue impact on ongoing operations, what resources are required 
to execute that implementation, and how we will phase and synchronize 
the implementation steps. The planning is in its initial stages, 
pending important force structure decisions, consistent with the NPR 
and 1251 Report, that have strategic, operational, and funding 
implications. I expect those decisions to be made soon.
    Let me make two final points about New START implementation. First, 
the treaty allows us the operational flexibility to adjust our force 
structure under its limits to address planned and unexpected events. 
For example, when combined with a smaller, sustainable weapon 
stockpile, we can adjust triad warhead loading to meet both near-term 
needs and potential unforeseen circumstances. This operational 
flexibility is important for our technical and geopolitical hedging 
strategy. Second, it is critically important to proceed with the 
planned investments in force sustainment, force modernization, warhead 
life extension, Stockpile Management Program, and the Department of 
Energy's nuclear weapons complex.
u.s. strategic command's role in npr implementation: follow-on analysis
    As called for in the Nuclear Posture Review, the Department of 
Defense will conduct follow-on analysis to update our assessment of 
deterrence requirements and inform administration thinking about 
potential future nuclear reductions below the levels in New START. The 
President will soon direct a strategic force analysis that will develop 
options for further reductions in our current nuclear stockpile. While 
STRATCOM has not yet received any formal tasking, I would like to make 
several points on how I believe our nuclear force requirements should 
be determined.
    I believe a fundamental principle of national security planning is 
that strategy should drive force requirements, and not vice versa. 
Stated slightly differently, the ``ends'' and ``ways'' of our strategy 
should determine the required ``means'' that our forces must provide. 
The New START negotiating position was based on this fundamental 
principle. I expect that the follow-on analysis will be based on the 
same concept: first define the strategy, and then we can determine the 
force requirements to implement it.
    Based on this principle, STRATCOM will have, in my view, two proper 
roles in the strategic requirements analysis. First, I will provide my 
best military advice for shaping potential changes in targeting 
requirements consistent with the principles stated in the Nuclear 
Posture Review. Second, as the command responsible for conducting 
strategic nuclear planning and operations, STRATCOM will provide advice 
on the force structure and force posture required to meet our 
deterrence requirements.
    It is important to note that the Nation's nuclear strategy is 
broader than just our employment strategy and the force-employment 
requirements derived from that strategy. Our nuclear forces have always 
played important strategic functions beyond the classic military role 
of holding potential adversary target sets at risk. For example, as we 
consider further negotiated reductions with Russia in our strategic and 
nonstrategic nuclear weapons, including nondeployed nuclear weapons, 
our strategy for hedging against technical and geopolitical surprise 
must inform our negotiating position. My point is that this is a 
complex endeavor that will require a multidisciplinary approach.
  u.s. strategic command's role in advocating for nuclear enterprise 
                     sustainment and modernization
    The NPR validated the role of the nuclear weapon complex and the 
triad and supported investments to modernize these capabilities. The 
nation faces a substantive recapitalization challenge that will be a 
multi-decade effort. While the platforms and systems in service today 
will remain throughout the life of New START, we must not delay our 
modernization efforts. Delivery system, warhead, and command and 
control actions must be completed on schedule to address age-related 
and performance concerns before operational forces are impacted. The 
length of our acquisition processes means we must now consider the 
requirements and develop the options for maintaining confidence in our 
nuclear deterrent capabilities. As we move to lower numbers, we must 
continue to make adequate investments in flexible force structure, 
weapons maintenance, and infrastructure sustainment programs.
    The substantial support Congress provided for the President's 
fiscal year 2011 funding request and continued support of the 
Presidents fiscal year 2012 funding request are key for the long-term 
safety, security, and effectiveness of our Nation's nuclear deterrent. 
These programs are essential for the sustainment and modernization of 
delivery systems (development of Ohio-class SSBN replacement, 
requirements scoping for follow-on bomber and ICBM), stockpile 
maintenance life extensions (W76-1, B61, W78), infrastructure 
recapitalization (Chemistry and Metallurgy Research Replacement-Nuclear 
Facility, Uranium Processing Facility), crucial naval reactor design 
activities for the Ohio-class SSBN replacement, and command and control 
architectures including the STRATCOM Headquarters command and control 
complex.
                               conclusion
    Mr. Chairman, Senator Sessions, and members of the subcommittee, 
STRATCOM is moving forward to implement New START and the NPR 
efficiently and effectively, and we stand ready to appropriately and 
fully participate in the strategic force analysis. Thank you for this 
opportunity to appear before you, and I look forward to your questions.
                                 ______
                                 
                Prepared Statement by Dr. Keith B. Payne
    The administration recently announced that it will undertake a 
review of U.S. nuclear requirements. Ultimately, the answer to the 
question of ``how much is enough?'' will be determined by the goals 
U.S. nuclear forces are expected to serve, the priorities attached to 
those goals and the standards used to judge their adequacy. For over 
five decades, those goals have been: (1) the stable deterrence of 
attacks; (2) assurance of allies via extended deterrence and the 
``nuclear umbrella''; (3) dissuasion of competitive challenges; (4) 
defense in the event deterrence fails; and (5) arms control. Democratic 
and Republican administrations alike have consistently given priority 
to these national goals, particularly stable deterrence, extended 
deterrence, and the assurance of allies.
    The forces pertinent to these five different goals overlap to some 
extent, but each also has its own unique requirements. For example, the 
forces that may be adequate to deter attacks on the United States may 
not be adequate to assure allies.\1\ There also can be competing 
pressures among these goals. For example, arms control initiatives may 
be incompatible with force standards for deterrence and assurance. 
Nevertheless, it is the combination of the requirements needed to 
support these diverse goals that should set the standards for measuring 
``how much is enough?''
---------------------------------------------------------------------------
    \1\ The different requirements for deterrence and assurance were 
best illustrated by Denis Healey, Britain's Defence Minister in the 
late 1960s, when he said that, ``it takes only 5 percent credibility of 
American retaliation to deter the Russians, but 95 percent credibility 
to reassure the Europeans.'' Denis Healey, The Time of My Life (London: 
Michael Joseph, 1989), p. 243.
---------------------------------------------------------------------------
    Measuring the adequacy of U.S. forces in this fashion follows the 
adage that strategy should drive numbers; numbers should not drive 
strategy. Of course, other factors such as budget and technical 
realities will intrude, but we should at least start by linking our 
definition of overall force adequacy to the standards linked to these 
goals.
    An alternative approach is to start with a level of forces 
preferred for a specific goal such as arms control, and then mandate 
that the force requirements for deterrence, assurance, defense and 
dissuasion conform to those preferred arms control levels. The downside 
of this approach is that the number and types of forces preferred for 
arms control purposes may ultimately be out of step with those needed 
to deter, assure, defend and dissuade--in which case, trade-offs must 
be made at the expense of these goals.
    The most fundamental question with regard to the forthcoming review 
of U.S. nuclear force requirements is what goal or set of goals will 
take precedence when the administration sets the standards to measure 
the value and adequacy of U.S. forces.
    The Obama administration has committed to sustaining effective 
capabilities for deterrence, assurance and limited defense, and has 
stated that force reductions must serve the goals of deterrence and 
assurance.\2\ It also has stated that, ``for the first time'' it places 
``atop the U.S. nuclear agenda'' international nonproliferation efforts 
``as a critical element of our effort to move toward a world free of 
nuclear weapons.'' \3\ This prioritization has led to the concern that 
the goal of nuclear reductions will take precedence in the calculation 
of ``how much is enough?''--particularly when trade-offs must be made.
---------------------------------------------------------------------------
    \2\ Department of Defense, Nuclear Posture Review Report, April, 
2010, p. xi.
    \3\ Nuclear Posture Review Report, p. vi (italics added); see also 
p. v.
---------------------------------------------------------------------------
    This concern was stoked when National Security Advisor Thomas 
Donilon announced the forthcoming nuclear reviews in the context of a 
conference and speech devoted to the administration's arms control 
agenda and stated specifically that the nuclear reviews are for the 
purpose of further U.S. nuclear reductions.\4\ Under Secretary of State 
Ellen Tauscher similarly described the purpose of these reviews--to 
facilitate nuclear reductions on the ``journey'' toward nuclear 
zero.\5\
---------------------------------------------------------------------------
    \4\ National Security Advisor Thomas E. Donilon's Remarks at the 
Carnegie International Nuclear Policy Conference, as Prepared for 
Delivery and Released by the White House, March 29, 2011.
    \5\ See the remarks by Ellen Tauscher, Under Secretary for Arms 
Control and International Security, The Global Zero ``GZ/DC 
Convention,'' The George Washington University, Washington, DC, April 
8, 2011.
---------------------------------------------------------------------------
    As described, this approach to reviewing U.S. nuclear requirements 
poses two serious problems: (1) it starts with the answer that further 
nuclear reductions are warranted; and (2) it says little or nothing 
about linking the standards of adequacy for U.S. forces to deterrence, 
assurance, defense and dissuasion as priority goals.
    If the priority goal behind the measure of U.S. nuclear forces is 
their reduction and ultimate elimination, then other goals such as 
deterrence, assurance and defense will be subordinated and further 
nuclear reductions inevitably will be acceptable--if the priority goal 
is so limited, no other answer could be expected. The conclusions 
reached on this basis, however, would force our strategies for 
deterrence, assurance, defense and dissuasion to conform to the lowered 
force levels deemed desirable for the different goal of further 
reducing nuclear weapons. That forced fit could undercut our 
traditional goals of deterrence, assurance and defense.
    The administration's apparent willingness to force that fit may be 
seen in its 2010 rejection of any new U.S. nuclear warheads to support 
new military missions or to provide any new military capabilities.\6\ 
This policy direction is intended to promote an arms control agenda, 
but comes at the potential expense of U.S. capabilities important for 
deterrence, assurance and defense. While Russia lists the United States 
as its greatest threat and places highest investment priority on the 
modernization of its nuclear forces, an administration official 
reportedly has stated recently that further cuts in U.S. nuclear forces 
could be made ``independent of negotiations with Russia.'' \7\ These 
policies, actions and statements suggest that some in the 
administration are willing to give precedence to the goal of arms 
reductions in the critical definition of U.S. force adequacy.
---------------------------------------------------------------------------
    \6\ Nuclear Posture Review Report, p. xiv.
    \7\ Desmond Butler, ``Promises: Obama's mixed results on nukes,'' 
Associated Press, April 5, 2011.
---------------------------------------------------------------------------
    There appear to be two competing dynamics within the Obama 
administration regarding the prioritization of U.S. strategic goals and 
the related calculation of force requirements. One generally reflected 
in the 2010 Nuclear Posture Review is committed to sustaining effective 
strategic capabilities for deterrence, assurance and limited defense; 
the other places top priority on arms control and movement towards 
nuclear zero in the calculation of force adequacy. Reconciling these 
two dynamics will be increasingly difficult and ultimately impossible 
absent the transformation of international relations.\8\ The 
fundamental question with regard to the administration's forthcoming 
nuclear reviews is how these two different views of U.S. priorities and 
requirements will play out in its calculation of ``how much is 
enough?''
---------------------------------------------------------------------------
    \8\ This point is emphasized in William J. Perry and James R. 
Schlesinger, America's Strategic Posture: The Final Report of the 
Congressional Commission on the Strategic Posture of the United States 
(Washington, DC: United States Institute of Peace, 2009), p. xvi.
---------------------------------------------------------------------------
    Based on the historical record, we know that U.S. nuclear weapons 
help to deter war and prevent conflict escalation. We also know that 
U.S. nuclear weapons help to assure allies and thereby contribute to 
nuclear nonproliferation. Finally, we know that deterrence can fail and 
leave us no alternative but to defend. Consequently, we should be wary 
of any review that does not place priority on the goals of deterrence, 
assurance and defense.
    Various commentators who instead place top priority on movement 
toward nuclear zero advocate continuing deep reductions--down to levels 
of 300, 500, or 1,000 warheads--all well below the New START treaty's 
ceiling of 1,550 warheads. At these much-reduced levels of warheads, 
they claim the United States could still meet some targeting 
requirements and thereby retain effective deterrence.
    Perhaps, but so subordinating the requirements for deterrence and 
assurance to the priority goal of further nuclear reductions entails 
serious potential risks. Most important, the reduced U.S. force posture 
flexibility and resilience at such low numbers would likely undermine 
the U.S. capability to adjust to surprising and dangerous political 
and/or technical developments as may be necessary to deter future wars, 
assure allies or defend if deterrence fails.
    A minimum standard of force adequacy also could make U.S. forces 
more vulnerable to opponents' covert or deceptive deployments and ease 
the technical/strategic difficulties for opponents who seek overtly to 
counter or get around our deterrence strategies-- possibly encouraging 
some to move in these directions. As such, very low numbers could work 
against U.S. efforts to dissuade nuclear arms competition with 
countries such as China.
    In addition, at minimal force levels the reduced credibility of our 
extended deterrent would motivate some allies to seek their own 
independent nuclear capabilities; i.e., it would contribute to 
incentives for nuclear proliferation among allies and friends and thus 
be at odds with the administration's stated top priority.
    Finally, minimal nuclear force standards and related policies of 
Minimum Deterrence almost inevitably lead to targeting concepts that 
seek deterrent effect from threats to kill large numbers of civilians 
and/or civilian targets.\9\ This is because unprotected civilians and 
civilian targets are highly vulnerable to limited nuclear threats. 
Successive U.S. administrations have rightly rejected this approach to 
deterrence as being incredible, immoral and illegal.
---------------------------------------------------------------------------
    \9\ ``Likewise, the United States needs relatively few warheads to 
deter China. A limited and highly accurate U.S. nuclear attack on 
China's 20 long-range ballistic missile silos would result in as many 
as 11 million casualties and scatter radioactive fallout across 3 
Chinese provinces . . . '' Pentagon is Exaggerating China's Nuclear 
Capability to Justify Buying New Generation of U.S. Weapons, Report 
Finds, Natural Resources Defense Council, Press Release, November 30, 
2006. See also, Hans M. Kristensen, et al., From Counterforce to 
Minimal Deterrence: A Nuclear Policy Toward Eliminating Nuclear 
Weapons, Federation of American Scientists and The Natural Resources 
Defense Council, Occasion Paper, No. 7 (April 2009), pp. 2, 31.
---------------------------------------------------------------------------
    These are the primary reasons why, for five decades, Democratic and 
Republican administrations have rejected a minimum standard for U.S. 
force requirements and Minimum Deterrence policies--despite their 
obvious attraction to many in the arms control community. These reasons 
remain sound.
    Is there room for further reductions in U.S. deployed nuclear 
forces below New START levels because some now suggest that deterrence 
could be maintained at 300, 500, or 1,000 warheads? The answer must be 
no, because no estimate of ``how much is enough?'' for deterrence alone 
is adequate to understand U.S. strategic force requirements. Recall 
that U.S. forces also serve the purposes of assurance, dissuasion and 
if necessary defense. Consequently, no calculation of deterrence 
requirements--no matter how sophisticated--can define the adequacy of 
U.S. strategic forces.
    Is there room for further nuclear reductions simply because a lower 
number of nuclear warheads could provide an assured retaliatory 
capability? The answer again must be no. First, not all U.S. 
retaliatory threats are likely to be credible. In addition, future 
threats to us and our allies remain inherently unpredictable in 
important ways; \10\ we will be confronted with unexpected threats 
because as former CIA Director, George Tenet said, ``What we believe to 
be implausible often has nothing to do with how a foreign culture might 
act.'' \11\ As a result our deterrence requirements can shift rapidly 
across time, place and opponent. Consequently, there is much more to 
the requirements for deterrence and assurance than simply having the 
number of warheads necessary to satisfy a targeting policy and maintain 
a retaliatory threat. The requirements for deterrence and assurance 
include qualitative factors that may be more important than quantity. 
Particularly critical are the flexibility and resilience of U.S. forces 
needed to adapt our deterrence strategies to shifting and unforeseen 
threats and circumstances.\12\ This requirement moves the calculation 
of ``how much is enough?'' for deterrence alone well beyond a matter of 
numbers and targeting policies.
---------------------------------------------------------------------------
    \10\ As noted recently by both James Clapper and Leon Panetta. See, 
Leon Panetta, testimony before the House Permanent Select Committee on 
Intelligence, World Wide Threats Hearing, February 10, 2011; and, James 
Clapper, testimony before the Senate Select Committee on Intelligence, 
Hearing, The Worldwide Threat, February 16, 2011.
    \11\ George Tenet (with Bill Harlow), At the Center of the Storm: 
My Years at the CIA (New York: HarperCollins, 2007), p. 46.
    \12\ Flexibility meaning U.S. possession of a spectrum of possible 
threat options suitable for a wide range of opponents and 
contingencies, and resilience meaning the capability to adapt 
deterrence to changes in threats and contexts, including rapid and 
unanticipated changes. See, Keith B. Payne, ``Maintaining Flexible and 
Resilient Capabilities for Nuclear Deterrence,'' Strategic Studies 
Quarterly (forthcoming, Summer 2011), p. 13.
---------------------------------------------------------------------------
    Neither I nor anyone else can legitimately claim to know that a 
much smaller nuclear force would be adequate to deter future attacks 
and assure allies in the years ahead. Precisely because future threats 
and the related requirements for deterrence and assurance are so 
uncertain, it is critical to sustain the flexibility and resilience of 
our strategic forces necessary to adapt to future, surprising 
circumstances. Correspondingly, we must sustain the number and 
diversity of our force posture necessary for its flexibility and 
resilience--moving to lower force levels than necessary for this 
purpose would carry real risk.
    If we posit that existing U.S. force levels are adequate for 
deterrence, assurance and defense, the burden of proof must be on those 
who claim that moving to a dramatically different, lower level of U.S. 
nuclear forces would continue to provide adequate support for 
deterrence, assurance and defense. This proof, however, is nowhere to 
be found because such claims are inherently speculative and typically 
based on optimistic assumptions about future threats. The inconvenient 
truth is that no one knows with any level of confidence how many of 
what types of nuclear forces will be adequate to deter or assure in 
coming years because threat conditions and opponents can change 
rapidly. This again is why sustaining the level of U.S. forces 
compatible with their flexibility and resilience is so critical.
    How much risk is reasonable in this regard? Following comprehensive 
analyses, the former Commander of STRATCOM, General Kevin Chilton, 
recently concluded that New START force levels would provide adequate 
force flexibility for deterrence under specific assumed conditions.\13\ 
But, even with optimistic assumptions about the future, Gen. Chilton 
explicitly cautioned against further reductions below New START force 
levels.\14\ Nothing has changed over the past few months to suggest 
that Gen. Chilton's caution no longer is valid. To the contrary, recent 
developments suggest some troubling threat conditions. For example, 
Russia has demonstrated the great war-fighting value it places on its 
large arsenal of tactical nuclear weapons, and its 2010 Military 
Blueprint identifies NATO and the United States as the primary threats 
to Russia.\15\
---------------------------------------------------------------------------
    \13\ Gen. Kevin Chilton, Senate Armed Services Committee, Hearing 
to Receive Testimony on the Nuclear Posture Review, April 22, 2010, pp. 
8, 13, 14; and General Kevin Chilton, House Armed Services Committee, 
Hearing, U.S. Nuclear Weapons Policy and Force Structure, April 15, 
2010, p. 11.
    \14\ Gen. Kevin Chilton, Senate Foreign Relations Committee, 
Hearing, The New START treaty: Views from the Pentagon, June 16, 2010, 
Federal News Service.
    \15\ Aleksey Arbatov, ``Arbatov on Need to Balance Army: With 
Available Resources, Clearer Foreign Policy,'' Voyenno-Promyshlennyy-
Kuryer Online, March 30, 2011, CEP20110330358006.
---------------------------------------------------------------------------
    In sum, the administration has voiced commitments to U.S. strategic 
forces and to the goals of deterrence, assurance, and limited defense. 
But recent statements with regard to the intent behind the forthcoming 
nuclear reviews cast some doubt on those commitments. If the reduction 
of nuclear forces en route to zero is the operative top goal of ``the 
U.S. nuclear agenda,'' then the forthcoming reviews undoubtedly will 
find a basis for further reductions. Deep reductions, however, would 
entail significant potential risks, which is why Democratic and 
Republican administrations for 5 decades have rightly rejected 
minimalist standards of force adequacy and related minimalist notions 
of deterrence. These may seem attractive if the ``journey'' to nuclear 
zero is the priority that dominates calculations of ``how much is 
enough?''--but not otherwise.

                                 ______
                                 
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator E. Benjamin Nelson
              implementation of the nuclear posture review
    1. Senator Nelson. Dr. Miller, the administration's Nuclear Posture 
Review (NPR) formed the basis for the New Strategic Arms Reduction 
Treaty (START) negotiations, but it is also the basis for the 
development of the policy documents that will actually implement the 
NPR. There are three basic documents that need to be developed: the 
presidential guidance; the Secretary of Defense guidance; and the 
guidance from the Chairman of the Joint Chiefs of Staff. What is the 
status of each of these documents; what is the process for developing 
these documents; and why are they important?
    Dr. Miller. Generally, three high-level documents provide overall 
policy guidance regarding U.S. nuclear weapons.
    Presidential guidance provides high-level direction on our nuclear 
deterrence strategy, employment/targeting policy, and force posture. I 
anticipate that President Obama will issue new presidential guidance 
later this year that incorporates many of the policy decisions reached 
during the NPR.
    The Secretary of Defense provides additional guidance in a document 
known as the Policy Guidance for the Employment of Nuclear Weapons 
(NUWEP) that implements and amplifies presidential guidance. The NUWEP 
is an annex to DOD's Guidance for Employment of the Force. The current 
NUWEP was issued in 2008. It will be revised by the Office of the Under 
Secretary of Defense for Policy in close coordination with the Joint 
Staff, U.S. Strategic Command (STRATCOM), the military departments, and 
other combatant commands following the issuance of the new Presidential 
guidance, and provided for approval by the Secretary of Defense.
    The Chairman of the Joint Chiefs of Staff also issues a document 
known as the Nuclear Supplement to the Joint Strategic Capabilities 
Plan (JSCP-N), which provides additional direction to military planners 
regarding the preparation of contingency plans for potential employment 
of U.S. nuclear weapons. The current JSCP-N was issued in 2004 and will 
be revised after the issuance of new presidential guidance and the 
NUWEP.

    2. Senator Nelson. General Kehler, STRATCOM is responsible for 
building its targeting plans in response to the guidance documents we 
just discussed. Can you please explain the process by which these 
targeting plans are developed?
    General Kehler. National-level target planning guidance flows from 
the President to the Secretary of Defense, then to the Chairman of the 
Joint Chiefs, and on to STRATCOM. STRATCOM planning begins with an 
analysis of the national level target planning guidance. The STRATCOM 
commander translates this guidance into direction for his staff and 
components through planning directives, guidance statements, and verbal 
instructions.
    To develop detailed targeting plans, STRATCOM develops a target 
list and then allocates specific weapon types to the targets, based on 
target characteristics and weapon performance factors. Next, STRATCOM 
plans specific weapons, down to the specific unit and platform for the 
targets previously constructed. Finally, the completed plans are 
approved by the Secretary of Defense, prior to distribution to national 
decision makers and dissemination to U.S. nuclear forces.

                      targeting and alert posture
    3. Senator Nelson. General Kehler, in a speech at the Carnegie 
Nonproliferation Conference last month, National Security Advisor, Tom 
Donilon, said that in developing options for future reductions: ``we 
need to consider several factors, such as potential changes in 
targeting requirements and alert postures.'' What changes in targeting 
postures are you considering?
    General Kehler. It is premature to discuss changes in targeting 
requirements prior to this review.

    4. Senator Nelson. General Kehler, what changes in alert postures 
are you considering?
    General Kehler. The current nuclear alert posture was reaffirmed in 
the 2010 NPR. Potential changes to that alert posture to be considered 
in the NPR follow-on requirements review have not yet been identified.

    5. Senator Nelson. Dr. Miller, is the Department of Defense (DOD) 
considering any changes in the alert posture of nuclear forces?
    Dr. Miller. The 2010 NPR examined possible adjustments to the alert 
posture of U.S. strategic forces and concluded that the current 
posture--with heavy bombers off full-time alert, nearly all 
intercontinental ballistic missiles (ICBM) on alert, and a significant 
number of SSBNs at sea at any given time--should be maintained for the 
present. Potential changes to alert posture may be considered in the 
NPR follow-on analysis, and if so, I expect such changes would be 
assessed by whether they support the NPR goals of maintaining strategic 
deterrence and stability at reduced nuclear force levels, strengthening 
regional deterrence, and reassuring U.S. allies and partners.

                         unilateral disarmament
    6. Senator Nelson. Dr. Miller, I think there is concern that the 
administration is headed down a path to make unilateral reductions in 
U.S. nuclear weapons. Is the administration planning to make unilateral 
reductions or will all future reductions be in the context of bi- or 
multi-lateral legally binding treaties?
    Dr. Miller. As stated in the 2010 NPR report, the administration 
will pursue a follow-on agreement to New START with Russia that binds 
both countries to further reductions in all nuclear weapons. The NPR 
report noted that while the need for strict numerical parity between 
the two countries is no longer as compelling as it was during the Cold 
War, large disparities in nuclear capabilities could raise concerns on 
both sides and among U.S. allies and partners. Therefore significant 
disparities may not be conducive to maintaining a stable, long-term 
strategic relationship, especially as nuclear forces are significantly 
reduced. Therefore, we will place importance on Russia joining in 
moving towards lower levels.
    It is our intention to keep the Senate fully informed about new 
developments in U.S. arms control policy and strategy.

    7. Senator Nelson. Dr. Miller, when is the right time to bring 
China, India, Pakistan, or others into discussions with respect to 
nuclear weapons?
    Dr. Miller. China, India, Pakistan, and others are already part of 
multilateral discussions on nuclear nonproliferation. This is a key 
element of the President's ``nuclear security agenda.'' As stated in 
the NPR report, the administration will pursue a follow-on agreement 
with Russia that binds both countries to further reductions in all 
nuclear weapons. This approach makes sense because even after New 
START, the United States and Russia will still have 95 percent of the 
world's nuclear weapons. Depending on the degree of any post-New START 
reductions made by the United States and Russia, it could well make 
sense to expand the negotiating process to a multilateral approach for 
subsequent steps.
    It is our intention to keep the Senate fully informed about new 
developments in U.S. arms control policy and strategy.

                         maintaining the triad
    8. Senator Nelson. Dr. Miller, in the NPR, DOD said that it would 
maintain the triad of nuclear forces. Is there any discussion or plan 
to go to a dyad of nuclear forces, and eliminate one of the three legs 
of the triad?
    Dr. Miller. The triad has significant advantages, and at this time 
the administration has not changed its stated plan to sustain a triad 
under the New START treaty. However, given the requirement to identify 
significant cost savings for DOD over the next decade or more, no set 
of capabilities can be considered to be completely ``off the table.'' 
The administration intends to provide a baseline force structure for 
the New START treaty as part of the fiscal year 2013 budget submission.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                           further reductions
    9. Senator Sessions. Dr. Miller and General Kehler, in a recent 
speech at the Carnegie Endowment, the President's National Security 
Advisor, Tom Donilon, stated that the administration is currently 
``making preparations for the next round of nuclear reductions'' and 
that DOD will ``review our strategic requirements and develop options 
for further reductions in our current nuclear stockpile.'' He continued 
by stating that in meeting these objectives, ``the White House will 
direct DOD to consider potential changes in targeting requirements and 
alert postures.'' With respect to Mr. Donilon's comments, what guidance 
and assumptions have you been given or told to follow in the design, 
development, and posture for modernizing the nuclear triad?
    Dr. Miller. At this time, DOD has not received additional White 
House guidance beyond the President's approval of the 2010 NPR, which 
included commitments to:

        <bullet> Implement the New START treaty fully while maintaining 
        the triad;
        <bullet> ``De-MIRV'' to a single warhead on each ICBM;
        <bullet> Retire Tomahawk Land Attack Missile-Nuclear while 
        modernizing Dual-Capable Aircraft and the associated nuclear 
        bomb;
        <bullet> Fund warhead Life Extension Programs and the 
        associated Stockpile Management Program fully; and
        <bullet> Make long-deferred investments in the Department of 
        Energy nuclear complex so that it can ensure an arsenal of 
        safe, secure, and effective weapons as long as nuclear weapons 
        exist.

    I expect that DOD will receive White House guidance within the next 
several months for conducting an analysis of options for future 
targeting requirements and alert postures.
    General Kehler. The administration outlined a long-term approach to 
nuclear triad modernization and sustainment in both the NPR and 1251 
report, and I fully support these plans. Until the NPR follow-on 
requirements review is conducted, it is not possible to say what--if 
any--changes will result, but I do expect any changes to be consistent 
with the findings of the NPR.

    10. Senator Sessions. General Kehler, have you been asked to 
conduct any technical analysis on modifications to force structure?
    General Kehler. We have not yet been tasked to conduct any 
specific, technical analyses for the NPR follow-on requirements review. 
However, we are participating in studies on the sustainment and 
modernization of the force, and I expect STRATCOM to be a full 
participant in the NPR follow-on requirements review.

    11. Senator Sessions. General Kehler, we were told the balance of 
forces represented by the New START treaty would be stable and that 
those force levels were what was necessary to support U.S. deterrence 
requirements. Why is it necessary to pursue further reductions?
    General Kehler. The NPR recommended the conduct of a follow-on 
analysis to set goals for future reductions below the levels expected 
in new START, while strengthening deterrence of potential regional 
adversaries, strategic stability vis-a-vis Russia and China, and 
assurance of our allies and partners. The pace and magnitude of 
potential future reductions should be influenced by the outcome of this 
analysis, as well as the following:

        <bullet> Full implementation of the Stockpile Stewardship 
        Program and the nuclear infrastructure investments recommended 
        in the NPR and codified in the 3113 (Stockpile Stewardship and 
        Management Plan) and 1251 reports; and
        <bullet> Russia joining us as we move to lower levels of 
        nuclear weapons.

    12. Senator Sessions. General Kehler, in your best military 
judgment, how prudent is it to begin consideration of reductions past 
the New START levels?
    General Kehler. It is prudent to consider any actions that have the 
potential to improve the security of the United States and its allies 
by enhancing deterrence and maintaining strategic stability. I will 
always evaluate any such actions carefully and provide my best military 
judgment accordingly. In the meantime, STRATCOM is fully engaged in 
implementing the New START treaty.

                nuclear doctrine and targeting guidance
    13. Senator Sessions. Dr. Miller and General Kehler, why is the 
administration contemplating changes to well-established nuclear 
doctrine and targeting requirements?
    Dr. Miller. Over the last 50 years, U.S. nuclear doctrine and 
targeting strategy have continually evolved with the global strategic 
environment. Given continued changes globally, the United States would 
be remiss if we did not reexamine our nuclear strategy and targeting 
requirements in today's dynamic security environment. As General Kehler 
stated, DOD routinely conducts analysis to inform nuclear planning. As 
Commander in Chief, the President is responsible for determining what 
is required to protect the United States and our allies and partners, 
as well as how he wishes the military to support deterrence, to prepare 
for the possibility that nuclear deterrence may fail, and, should that 
occur, to take steps to end conflict on the best possible terms.
    General Kehler. As discussed in the NPR, the security environment 
has changed dramatically since the end of the Cold War. A review is a 
prudent step towards addressing the top priorities discussed in the 
NPR:

        <bullet> Discourage additional countries from acquiring nuclear 
        weapons;
        <bullet> Prevent terrorists from acquiring nuclear weapons or 
        materials to produce them;
        <bullet> Maintain stable strategic relationships with Russia 
        and China; and
        <bullet> Counter threats posed by emerging nuclear-armed 
        states.

    14. Senator Sessions. Dr. Miller and General Kehler, to the extent 
you can in an unclassified response, please describe current nuclear 
doctrine and targeting guidance.
    Dr. Miller. Current doctrine and targeting guidance provide the 
President with a wide range of pre-planned, flexible response options 
should deterrence fail. Planners are directed to develop response 
options designed to hold at risk targets that a potential adversary 
values, while minimizing civilian and other collateral damage, and 
where possible to limit damage to the United States and our allies and 
partners. Planners are also directed to provide the ability for 
``adaptive planning'' to provide additional options if directed to 
respond to unanticipated circumstances. The United States continues the 
practice of open-ocean targeting of all ICBMs and SLBMs. This is so 
that in the highly unlikely event of an unauthorized or accidental 
launch, the missile would land in the open ocean. The maintenance of 
such flexibility in our forces and planning capability has been a 
cornerstone of U.S. nuclear policy for decades and will remain a key 
component of our upcoming analysis.
    General Kehler. U.S. nuclear doctrine can be broadly defined as 
follows:

        <bullet> The fundamental role of nuclear weapons, which will 
        continue as long as nuclear weapons exist, is to deter nuclear 
        attack on the United States, our allies, and partners;
        <bullet> The United States will not use or threaten to use 
        nuclear weapons against non-nuclear weapons states that are 
        party to the NPT and in compliance with their nuclear 
        nonproliferation obligations. In the case of countries not 
        covered by this assurance, a narrow range of contingencies 
        remain in which U.S. nuclear weapons may still play a role in 
        deterring a conventional or CBW attack against the United 
        States or its allies and partners; and
        <bullet> The United States would only consider the use of 
        nuclear weapons in extreme circumstances to defend the vital 
        interests of the United States or its allies and partners.

    15. Senator Sessions. Dr. Miller and General Kehler, what is wrong 
with the current guidance?
    Dr. Miller. Current guidance is not ``wrong.'' Over the last 50 
years, U.S. nuclear doctrine and targeting strategy have continually 
evolved with the global strategic environment. The United States would 
be remiss if we did not reexamine our nuclear strategy in today's 
dynamic security environment. Revisions to current guidance may be 
required to ensure that our forces remain properly sized and configured 
for the real threats of today and tomorrow. Updating guidance to 
support deterrence is a key responsibility of any administration and 
both previous NPRs preceded presidential updates in nuclear guidance.
    General Kehler. Reviewing nuclear employment guidance following a 
NPR is a logical follow-on step, given past precedent and today's 
dynamic security environment.

    16. Senator Sessions. Dr. Miller and General Kehler, has there been 
a change in global security conditions that warrants a guidance change?
    Dr. Miller. Since the last NPR was completed in 2001, global 
security conditions have changed significantly. We would be remiss if 
we did not review nuclear guidance rigorously and review it as needed.
    General Kehler. As noted in the NPR, there have been significant 
and ongoing changes in global security conditions. The purpose of the 
NPR follow-on requirements review is to determine whether, and in what 
ways, those changes might require changes in guidance.

    17. Senator Sessions. Dr. Miller and General Kehler, what will be 
the impact of these changes on our ability to assure our allies?
    Dr. Miller. As noted in the 2010 NPR Report, reassuring U.S. allies 
and partners is one of the key objectives of U.S. nuclear deterrence 
policies. Any changes in our nuclear posture which supports these 
policies will be considered in the context of our continuing need to 
assure our allies and partners of our commitment to their security. It 
is the administration's goal to demonstrate this commitment not only 
through words, but also by tangible deeds and capabilities.
    General Kehler. Until we receive and begin to review any updated 
guidance, it is premature to speculate on the impact of potential 
changes. However, consistent with the NPR, any potential changes to our 
employment guidance will be evaluated regarding their impacts on our 
ability to assure our allies in the context of global security 
conditions.

    18. Senator Sessions. Dr. Miller and General Kehler, what will be 
the impact of these changes on our ability to discourage other 
countries from seeking strategic equivalence with the United States in 
nuclear weapons?
    Dr. Miller. Russia is the only country that maintains nuclear 
forces in numbers that are on par with the United States. While noted 
in the 2010 NPR Report, the need for strict numerical parity between 
the two countries is no longer as compelling as it was during the Cold 
War, large disparities between the nuclear capabilities of the United 
States and Russia could raise concerns on both sides, and among U.S. 
allies and partners, and jeopardize the prospect for further 
reductions. Therefore, we will place importance on Russia joining us as 
we move to lower levels. Remaining well-hedged against both 
technological and geopolitical surprise (e.g., an attempted ``sprint to 
parity'' by a third country) remains a key priority and is one of the 
metrics we intend to use to assess any potential changes in our nuclear 
doctrine and force structure.
    General Kehler. Until we receive and begin to review any updated 
guidance, it is premature to speculate on the impact of potential 
changes. However, consistent with the NPR, any potential changes to our 
employment guidance will be evaluated regarding their impacts on our 
ability to discourage other countries from seeking strategic 
equivalence with the United States in nuclear weapons.

    19. Senator Sessions. Dr. Miller and General Kehler, what will be 
the impact of these changes on our ability to hedge against future 
threats and uncertainties?
    Dr. Miller. Remaining well-hedged against geopolitical or 
technological surprise will be a key metric by which we intend to 
assess any potential changes in U.S. nuclear doctrine or force 
structure.
    General Kehler. Until we receive and begin to review any updated 
guidance, it is premature to speculate on the impact of potential 
changes. However, consistent with the NPR, any potential changes to our 
employment guidance will be evaluated regarding their impacts on our 
ability to hedge against future threats and uncertainties.

                             alert posture
    20. Senator Sessions. Dr. Miller and General Kehler, why did Mr. 
Donilon suggest a need to re-review our alert posture?
    Dr. Miller. The 2010 NPR examined possible adjustments to the 
current alert posture of U.S. strategic forces and concluded that the 
current posture should be maintained for the present. However, the NPR 
also directed the initiation of studies that could lead to future 
reductions in alert posture, including potential new modes of basing 
for ICBMs that may ensure the survivability of this leg of the triad 
while eliminating or reducing incentives for prompt launch.
    DOD continually assesses our deterrence requirements, including 
potential changes in targeting requirements and alert postures that are 
required for effective deterrence. We expect that the NPR follow-on 
analysis will consider postures that offer varying degrees of 
flexibility and redundancy with respect to our deterrence and related 
targeting objectives, and identify the force levels needed to support 
those objectives and any potential risks associated with each.
    This approach is entirely consistent with Mr. Donilon's statement 
that the DOD's review of U.S. strategic requirements will help shape 
our negotiating approach to the next agreement with Russia.
    General Kehler. Mr. Donilon stated his rationale for re-review in 
his 2011 Carnegie International Policy Conference speech. The NPR 
concluded ``that the current alert posture of U.S. strategic forces--
with heavy bombers off full-time alert, nearly all ICBMs on alert, and 
a significant number of SSBNs at sea at any given time--should be 
maintained for the present.'' The NPR went on to state: ``Looking into 
the longer term, NPR initiated studies may lead to future reductions in 
alert posture. For example, in an initial study of follow-on systems to 
the Minuteman III ICBM force, the DOD will explore whether new modes of 
basing may ensure the survivability of this leg of the triad while 
eliminating or reducing incentives for prompt launch.''

    21. Senator Sessions. Dr. Miller and General Kehler, didn't the NPR 
from just a year ago conclude that the current alert posture should be 
maintained?
    Dr. Miller. You are correct. The 2010 NPR examined possible 
adjustments to the current alert posture of U.S. strategic forces and 
concluded that the current posture should be maintained for the 
present. However, the NPR also directed the initiation of studies that 
over the longer term may lead to future reductions in alert posture. 
For example, an initial study to explore whether new modes of basing 
for ICBMs may ensure the survivability of this leg of the triad while 
eliminating or reducing incentives for prompt launch. We live in a 
highly dynamic security environment. The purpose of the NPR follow-on 
analysis is to ensure that our forces remain properly configured for 
the real threats of today and tomorrow.
    General Kehler. Yes.

    22. Senator Sessions. Dr. Miller and General Kehler, what is 
destabilizing about the current alert posture?
    Dr. Miller. The 2010 NPR report recommended that the current alert 
posture of U.S. strategic forces--with heavy bombers off full-time 
alert, nearly all ICBMs on alert, and a significant number of SSBNs at 
sea at any given time--should be maintained for the present. However, 
the NPR report also stated that the United States should continue to 
posture U.S. forces and enhance command and control arrangements for 
strategic nuclear forces to reduce further the possibility of nuclear 
launches resulting from accidents, unauthorized actions, or 
misperceptions, while maximizing the time available to the President to 
consider whether to authorize the use of nuclear weapons. We live in a 
highly dynamic security environment. The purpose of the NPR follow-on 
analysis is to ensure that our forces remain properly sized and 
configured for the real and evolving threats of today and tomorrow.
    General Kehler. The NPR reaffirmed the current alert posture. In my 
view, our current alert posture is not destabilizing. We are constantly 
reviewing our alert posture to see if it may be possible to make 
changes that further enhance our security without increased risk.

    23. Senator Sessions. Dr. Miller and General Kehler, are U.S. 
forces on hair trigger alert?
    Dr. Miller. Although it is true that portions of the U.S. nuclear 
triad are capable of rapid execution upon authorization from the 
President, a robust system of safeguards and procedures is in place to 
prevent the accidental or unauthorized launch of a U.S. nuclear weapon. 
These safeguards and procedures have been successful for many decades 
and we continually refine them to ensure their continued effectiveness.
    The 2010 NPR examined possible adjustments to the current alert 
posture of U.S. strategic forces and concluded that the current 
posture--with heavy bombers off full-time alert, nearly all ICBMs on 
alert, and a significant number of SSBNs at sea on alert at any given 
time--should be maintained for the present. It also stated that the 
United States should continue to posture U.S. forces and enhance the 
command and control architecture for strategic nuclear forces to 
minimize the possibility of nuclear launches resulting from accidents, 
unauthorized actions, or misperceptions, while maximizing the time 
available for the President to consider whether to authorize the use of 
nuclear weapons. The net result of the U.S. alert posture should remain 
that any potential adversary must conclude that the gains for 
initiating nuclear hostilities against the United States would be far 
outweighed by the costs, which is the essence of deterrence.
    General Kehler. Although it is true that portions of the U.S. 
nuclear triad are capable of rapid execution upon authorization from 
the President, a robust system of safeguards and procedures is in place 
to prevent the accidental or unauthorized launch of a U.S. nuclear 
weapon. These safeguards and procedures have been successful for many 
decades and we continually refine them to ensure their continued 
effectiveness.
    The 2010 NPR examined possible adjustments to the current alert 
posture of U.S. strategic forces and concluded that the current 
posture--with heavy bombers off full-time alert, nearly all ICBMs on 
alert, and a significant number of SSBNs at sea on alert at any given 
time--should be maintained for the present. It also stated that the 
United States should continue to posture U.S. forces and enhance the 
command and control architecture for strategic nuclear forces to 
minimize the possibility of nuclear launches resulting from accidents, 
unauthorized actions, or misperceptions, while maximizing the time 
available for the President to consider whether to authorize the use of 
nuclear weapons. The net result of the U.S. alert posture is that any 
potential adversary must conclude that the gains for initiating nuclear 
hostilities against the United States would be far outweighed by the 
costs, which is the essence of deterrence.

    24. Senator Sessions. Dr. Miller and General Kehler, what are the 
risks of further de-alerting U.S. nuclear forces?
    Dr. Miller. The 2010 NPR examined possible adjustments to the 
current alert posture of U.S. strategic forces and concluded that the 
current posture--with heavy bombers off full-time alert, nearly all 
ICBMs on alert, and a significant number of SSBNs at sea on alert at 
any given time--should be maintained for the present. The 2010 NPR 
report also concluded that reducing the alert rates for ICBMs and at-
sea rates of SSBNs could reduce crisis stability by giving an adversary 
the incentive to attack before re-alerting was complete.
    However, the NPR report also stated that the United States would 
study potential changes that could lead to future reductions in alert 
posture, such as alternate basing modes for ICBMs. In addition, the NPR 
report affirmed that the United States should continue to posture U.S. 
forces and enhance command and control arrangements for strategic 
nuclear forces to reduce further the possibility of nuclear launches 
resulting from accidents, unauthorized actions, or misperceptions, 
while maximizing the time available to the President to consider 
whether to authorize the use of nuclear weapons. We live in a highly 
dynamic security environment. The purpose of the NPR follow-on analysis 
is to ensure that our forces remain properly sized and configured for 
the real threats of today and tomorrow.
    General Kehler. Any relaxation of alert posture must consider the 
effect of these actions on the geopolitical environment, our ability to 
achieve national objectives, and the corresponding actions taken by 
other nuclear powers. Potential risks and benefits are scenario-
specific but could include crisis stability concerns as forces are re-
alerted.

    25. Senator Sessions. Dr. Miller and General Kehler, wouldn't these 
risks be destabilizing during a crisis as each side starts to re-alert 
its forces?
    Dr. Miller. The 2010 NPR concluded that reducing the alert rates 
for ICBMs and at-sea rates of SSBNs could reduce crisis stability by 
giving an adversary the incentive to attack before re-alerting was 
complete. The 2010 NPR concluded that the current posture--with heavy 
bombers off full-time alert, nearly all ICBMs on alert, and a 
significant number of SSBNs at sea on alert at any given time--should 
be maintained for the present.
    However, the NPR report also stated that the United States would 
study potential future changes that could lead to reductions in alert 
posture, such as alternate basing for ICBMs. In addition, the NPR 
report stated that the United States should continue to posture U.S. 
forces and enhance command and control arrangements for strategic 
nuclear forces to reduce further the possibility of nuclear launches 
resulting from accidents, unauthorized actions, or misperceptions, 
while maximizing the time available to the President to consider 
whether to authorize the use of nuclear weapons. We live in a highly 
dynamic security environment. The purpose of the NPR follow-on analysis 
is to ensure that our forces remain properly sized and configured for 
the real threats of today and tomorrow.
    General Kehler. Any relaxation of alert posture must consider the 
effect of these actions on the geopolitical environment, our ability to 
achieve national objectives, and the corresponding actions taken by 
other nuclear powers. Potential risks and benefits are scenario-
specific but could include crisis stability concerns as forces are re-
alerted.

                           strategic balance
    26. Senator Sessions. Dr. Payne, as I mentioned in my opening 
comments, I am concerned this administration intends to ignore the 
importance of achieving strategic balance and establishing a defensive 
posture that is neither overly reliant nor overly abolitionist towards 
nuclear deterrence, opting instead for a political agenda focused on 
unilateral reductions. Do you agree that pursuing unilateral reductions 
is a risky proposition?
    Dr. Payne. On June 1, 2011, the Department of State released the 
first data exchange on U.S. and Russian strategic forces under the New 
START. That data exchange demonstrates conclusively that Russia's 
deployed forces were below the treaty's ceiling on the first day the 
treaty came into force. In contrast, the United States will have to 
make reductions in its deployed warheads and launchers. Consequently, 
New START does indeed require unilateral U.S. reductions, a fact long-
denied by senior Obama administration officials. These unilateral 
reductions that follow from U.S.-Russian negotiations and treaty-
imposed limits on U.S. forces are different from unilateral U.S. 
decisions to reduce its forces as appropriate to ensure that U.S. 
forces are compatible with U.S. requirements and potential 
requirements.
    If the United States unilaterally adjusts its forces and in doing 
so maintains all of the forces necessary to meet the spectrum of goals 
those forces are intended to support, then unilateral reductions will 
not necessarily pose a risk. However, if those reductions are mandated 
by negotiated treaty ceilings and other legal constraints that impose 
enduring boundaries on current and future U.S. force options, then the 
great risk is that those reductions and limits will prevent the United 
States from fielding the number and types of forces that may be 
necessary now and in the future to help deter war, assure worried 
allies, and defend against attacks, if necessary. In addition, such 
unilateral reductions preclude one of the preeminent values attributed 
to arms control negotiations, i.e., securing some degree of our desired 
reductions in an opponent's forces in return for accepting to some 
degree its desired reductions in our forces. (Indeed, the Obama 
administration presented the major value of New START in terms of the 
reductions it supposedly imposed on deployed Russian forces.) The great 
risk of our engaging in unilateral reductions as part of a negotiated 
agreement is that the United States effectively gives up the 
negotiating leverage that otherwise resides in those forces and 
realizes no reductions in the other party's forces in exchange. 
Unilateral reductions squander potential negotiating leverage. This is 
a great risk if, in fact, the United States would like to realize some 
level of reductions in the other party's forces. In the contemporary 
example of New START, the United States has engaged in unilateral 
reductions while it continues to have serious unmet goals with regard 
to the reduction of Russian nuclear forces, particularly including in 
Russian tactical nuclear forces and prospectively in future Russian 
heavy ICBMs.

    27. Senator Sessions. Dr. Payne, the Strategic Posture Commission 
report states: ``the United States needs a spectrum of nuclear and non-
nuclear force employment options and flexibility in planning along with 
the traditional requirements for forces that are sufficiently lethal 
and certain of their result to threaten an appropriate array of targets 
credibly.'' In your opinion, does our nuclear doctrine and nuclear 
targeting strategy adequately address this approach today?
    Dr. Payne. Contemporary U.S. doctrine as described publicly calls 
for considerable U.S. flexibility and options to support the 
fundamental national goals of deterrence, extended deterrence, 
assurance, and defense. Some elements of U.S. doctrine, such as the 
policy that precludes any new U.S. nuclear capabilities, limit the 
flexibility and options that may be important to support U.S. goals in 
the future. It is very difficult to discuss U.S. targeting issues 
openly. It is possible to observe that the current triad of bombers and 
missiles and the associated warheads provide flexibility and lethality 
that help support these fundamental national goals. However, some 
recent public discussion by senior officials cast troubling doubt on 
the future of the U.S. triad and the flexibility and options made 
possible by the triad. In addition, there are some U.S. targeting 
capabilities that may be extremely important in support of U.S. goals 
that either are in short supply or are unavailable. For example, as 
several senior military officers have emphasized publicly, available 
U.S. long-range prompt global strike (PGS) options are nuclear; the 
availability of non-nuclear PGS options could be important for U.S. 
national goals in numerous plausible scenarios. Similarly, some allies 
have openly described the U.S. nuclear force characteristics they deem 
important for extended nuclear deterrence and their assurance. U.S. 
forces with these characteristics in some cases either are aged or non-
existent. In addition, the level of U.S. societal vulnerability to 
various types of weapons of mass destruction attack appears to be 
extremely high, reflecting a potential inadequacy in U.S. societal 
defensive assets available and as planned. Finally, the strategic 
offense and defense capabilities needed to support national goals in 
the future are bound to change over time and cannot be predicted with 
great precision. Therefore, ensuring that the U.S. force posture 
provides flexibility and has the necessary resilience to adapt to 
future threats must be our primary consideration. Further reductions 
and limitations on the U.S. force structure beyond New START could 
undermine that needed flexibility and resilience.

    28. Senator Sessions. Dr. Payne, how could a policy of unilateral 
reductions impact our nuclear strategy and targeting doctrine?
    Dr. Payne. Unilateral reductions could create a gap or further 
exacerbate the gaps in U.S. force flexibility and options that could 
prove necessary now or in the future to support the fundamental 
national goals of deterrence, assurance, extended deterrence, and 
defense. Unilateral reductions could also further reduce the 
negotiating leverage available to the United States without securing 
further negotiated reductions in Russian nuclear forces, including in 
Russian tactical nuclear weapons.

    29. Senator Sessions. Dr. Payne, the Strategic Posture Commission 
report states that: ``reductions in deployed forces should be made on 
the basis of bilateral agreement with Russia.'' Why is this important?
    Dr. Payne. Bilateral agreement as the basis for reductions is 
important now because the United States has outstanding unmet 
objectives with regard to the negotiated reduction of Russian nuclear 
forces. Further U.S. unilateral reductions would potentially further 
degrade the negotiating leverage that could otherwise be available to 
the United States to realize these objectives.

    30. Senator Sessions. Dr. Payne, if significant reductions are 
sought, do you agree all nuclear powers should be required to reach 
agreement and address threats like North Korea and Iran?
    Dr. Payne. Any further reductions should be subject to extensive 
and serious consultation with our allies given the importance of U.S. 
nuclear forces to their security and their evaluations of their 
potential need for nuclear weapons. In addition, if negotiations for 
the purpose of further and very significant reductions take place, such 
negotiations certainly should become multilateral and effectively 
involve not only other nuclear powers but also key non-nuclear allies 
dependent on U.S. nuclear forces.

    31. Senator Sessions. Dr. Payne, are you concerned that it has been 
reported that administration officials are considering further 
reductions independent of negotiations with Russia?
    Dr. Payne. Yes. The United States has significant, unmet goals with 
regard to further reductions in Russian nuclear forces. Further U.S. 
unilateral reductions beyond New START would likely undermine the U.S. 
ability to realize those goals.

                     weapons complex modernization
    32. Senator Sessions. General Kehler, in what ways will the 
construction of the Chemical and Metallurgy Research Replacement (CMRR) 
facility at Los Alamos and the Uranium Production Facility (UPF) at Y-
12 impact current requirements for the size of our strategic hedge?
    General Kehler. As described in the 2010 NPR, the restoration and 
modernization of our current weapons complex infrastructure will 
provide an opportunity for the United States to shift away from 
retaining large numbers of nondeployed nuclear warheads as a strategic 
hedge. The CMRR Nuclear Facility and the UPF will provide national 
capabilities to support production of nuclear components critical for 
maintaining and managing the stockpile. With adequate funding, these 
facilities are projected to be fully operational in the mid-2020s 
timeframe.

    33. Senator Sessions. General Kehler, without these facilities and 
the other elements associated with the robust plan for modernizing the 
nuclear weapons complex, do you believe reductions to the strategic 
hedge would be prudent?
    General Kehler. In the near-term, I support the retention of 
nondeployed warheads as a cost effective risk management approach to 
ensure our nuclear deterrent remains credible. Key considerations for 
determining the size of nondeployed hedge are confidence in the 
capability of our nuclear forces, stockpile, and infrastructure to 
address technical and geopolitical uncertainty. Hedge requirements are 
evaluated annually to maintain a credible nuclear deterrent and manage 
risk.

                     new start implementation costs
    34. Senator Sessions. Dr. Miller and General Kehler, the fiscal 
year 2012 budget provides little details on the costs associated with 
implementing the New START treaty. Has DOD estimated the anticipated 
cost? If so, what is the anticipated cost?
    Dr. Miller. DOD continues to evaluate projected costs for 
implementation of the New START treaty. The fiscal year 2012 
President's budget request includes approximately $22.4 million for New 
START treaty implementation: U.S. Air Force $8.2 million, U.S. Army 
$0.47 million, U.S. Navy $6.3 million, the Missile Defense Agency $0.02 
million, and the Defense Threat Reduction Agency $7.4 million.
    Over the 10-year life of the New START treaty, our best estimate of 
the total cost for DOD activities associated with implementation of the 
treaty is currently between $880.5 million--$1,169 million. This 
estimate is tentative and does not include potential offsetting cost 
savings such as reducing operations and maintenance costs of eliminated 
forces. However, until final decisions are made on U.S. Air Force 
strategic delivery vehicles, as well as elimination methods for ICBM 
silos and conversion methods for the B-52 and SLBM launchers, it is not 
feasible to provide an accurate total cost estimate.
    General Kehler. DOD continues to identify and analyze New START 
implementation costs. We anticipate that future budgets will include 
costs for implementation.

    35. Senator Sessions. Dr. Miller and General Kehler, does DOD 
intend to provide Congress the estimated cost associated with 
implementing the New START treaty?
    Dr. Miller. Over the life of the New START treaty (10 years), our 
best estimate of the total estimated cost for DOD activities associated 
with implementation of the New START treaty would be between $880.5 
million and $1,169 million. This estimate is tentative and does not 
include potential offsetting cost savings such as reducing operations 
and maintenance costs of eliminated forces. However, until final 
decisions are made on U.S. Air Force strategic delivery vehicles, as 
well as elimination methods for ICBM silos and conversion methods for 
the B-52 and SLBM launchers, it is not feasible to provide an accurate 
total cost estimate.
    General Kehler. Yes. New START implementation costs will be 
reflected in future budget submissions. We anticipate the President's 
budgets will identify what must be started in the near-term in order to 
ensure successful completion by February 2018.

    36. Senator Sessions. Dr. Miller and General Kehler, what is the 
current timeframe for implementing the force posture as outlined in the 
1251 report that accompanied the New START treaty?
    Dr. Miller. The New START treaty provides flexibility for each 
party to implement its nuclear force structure changes and does not 
mandate a schedule for the implementation of reductions beyond the 
requirement that the three central limits are met within 7 years of the 
entry-into-force date.
    The New START treaty entered into force on February 5, 2011, and 
the United States has until February 2018 to bring its nuclear force 
structure into compliance with New START treaty limits. The Office of 
the Secretary of Defense is working with STRATCOM, the Joint Staff, and 
the military departments to determine how we will implement specific 
provisions of the New START treaty efficiently and without undue impact 
on ongoing operations, what resources are required to implement these 
New START treaty provisions, and how we will phase and synchronize the 
implementation steps.
    DOD is currently reviewing New START treaty implementation options 
in order to sequence activities in an efficient and fiscally 
responsible manner.
    General Kehler. As you are aware, the United States has until 
February 2018 to meet treaty central limits. DOD is currently reviewing 
New START treaty implementation options in order to sequence activities 
in an efficient and fiscally responsible manner.

    37. Senator Sessions. Dr. Miller and General Kehler, when does DOD 
intend to identify a final force posture given the plans to date only 
specify a range for deployed ICBMs, i.e. up to 420 and up to 60 
nuclear-capable bombers?
    Dr. Miller. DOD intends to provide a baseline force structure that 
meets New START treaty limits within the treaty's 7-year implementation 
period, as part of the fiscal year 2013 budget submission to Congress. 
It is important to note, however, that this baseline force structure 
could be adjusted in the future, for example, if the United States 
faced technical challenges with one triad leg and wished to shift 
weight toward another. The New START treaty provides flexibility for 
each party to implement its nuclear force structure changes and does 
not mandate a schedule for the implementation of reductions beyond the 
requirement that the three central limits are met within 7 years of the 
entry-into-force date.
    General Kehler. New START provides a flexible framework to meet 
central limits over a 7-year period. Because it is important not to 
make decisions today that preclude future options, DOD is reviewing New 
START implementation plans in order to identify critical milestones and 
key decision points. Examinations of alternate force structures are 
part of this comprehensive review.

    [Whereupon, at 3:58 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
